*

!

w. j

No.

r

Supreme’Court, U.S.
FILED

20-30161

MAR 2 6 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

George Verkler
— PETITIONER

(Your Name)
vs.

United States of America

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Ninth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

George Verkler
(Your Name)

407 E. Young St.
(Address)

Elma, WA 98541
(City, State, Zip Code)

253-235-1780
(Phone Number)

i

/

fliciifiir
m 2 - 2021

*/•

TABLE OF CONTENTS
TABLE OF CONTENTS......

1

QUESTIONS PRESENTED

n

LIST OF PARTIES.............

iii

OPINIONS BELOW.

iv

JURISDICTION

,v

FORMA PAUPERIS and AFFIDAVIT OF INDIGENCY.

,vr

STATEMENT OF THE CASE

1-12

REASONS FOR GRANTING THE WRIT.

13-38

CONCLUSION.

39

APPENDEX A Orders.
APPENDEX B Judgment.............................
APPENDEX C TABLE OF AUTHORITIES
APPENDEX D CONSTITUTIONAL AND STATUTORY PROVISIONS....

.

jl

-•

-

QUESTIONS PRESENTED
Does the presumption of innocence mean that if a judge will not read everything a
defendant in a criminal case submits to the court that the judge must rule in favor of the
Defendant?
Doesn’t a defendant in a criminal case have the right to assistance of counsel?
Doesn’t the U.S. Constitution and federal law allow a defendant in a criminal case
does to attack a completely unconstitutional, illegal and unjust decision?
Why cannot Mr. Verkler get protection from double jeopardy?
When was the U.S. Constitution changed so a defendant in a criminal case can be
subject to an infinite excessive amount in fines without court order, be denied an hearing or
any due process or private property taken be taken for public use without just
compensation?
Since USA breached the plea contract and refuses to remedy the breach that the
Defendant may rescind the contract and withdraw the guilty plea?
Since when can the court make up any standard it wants to commit a crime against
a person?
Doesn’t a US citizen have protection under the Constitution and the Law?
Isn’t it true that there is nothing in the U.S. Constitution or federal law that gives
anyone in the government authority to commit a crime, a tort, conspire or lie against an
American?

i

V:

:

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

m

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

Kl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ^
the petition and is
[ 3 reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix A
the petition and is
[ 3 reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ 3 reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ 3 reported at____
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.

IV

to

to

V

JURISDICTION

P<{ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
‘
03/03/21,
was 11/13/20
[ 3 No petition for rehearing was timely filed in my case.
1^1 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:__________
, and a copy of the
order denying rehearing appeal’s at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1264(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
----------------------------- - and a copy of the order denying rehearing
appears at Appendix
[ J An extension of time to file the petition for a writ of certiorari was granted
to and including___
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1267(a).

V

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Right to assistance of legal counselFerrara v US. 456 F.3d 278, over, 286, 289, 30th, 34*, pg (1st Cir 2006);
Johnson v Zerbst, 304 US 458 (1938);
Powell v AL. 287 US 45, 69 (1932);
US vGonzalez-Lonez. 548 U.S. 140, 150 (2006):
US v Wade. 388 US 218, 226 (1967);
US v Iasiello (3rd Cir Pa. Jan 22, 1999) 166 F.3d 212;
Green v US (8th Cir Minn Aug 17, 2001);
Ronev v US (8th Cir Mo, Mar 7, 2000), 205 F.3d 1061;
Frazer v US. 18 F.3d 778 (9th Cir 1993);
US v Nguven. 262 F.3d 998, 1005 (9* Cir 2001);
US v Velazquez. 855 F.3d 1021, 1034 (9* Cir 2017);
US v Leonard (10* Cir Okla. Mar 16, 1999), 170 F.3d 1013;
US v Maxwell (10* Cir Okla, June 12, 2006);
Shepherd v US (11* Cir Fla. June 6, 2001);
St of WA v Delila Reid. 98358-3 No 36274-4-III (2020).

USA v Verkler 20-30161

15

Double Jeopardy and Multiple Punishments Prohibited:
Blackledge v Perry. 417 US 21, 24, 30 (1974);
Brown V Ohio. 432 US 1611 (1977);
Menna v NY, 423 US 61, sum, 62 (1975);
Monee v California. 524 US 721, 727-8 (1998);
Tumev v. Ohio. 273 US 510, Syllabus # 1, 522 (1927);
US v Helper. 490 US 435 (1989);
Hallidav v US. 380 F. 2d 270 (1st Cir 1967);
US v Elliot. 463 F.3d 858, 864 (9th Cir 2006);
US v Camacbo. 413 F.3d 985 (2005 CA9 Cal);
US v Carpegna (2009 CA9 Wash) 349 Fed Appx 125;
US v Davenport. 519 F.3d 940, 943 (2008, CA9 Wash);
US v Lvnn. 636 F.3d 1127 (2010 CA9 Cal);
US v Maier. 646 F.3d 1148 (2011, CA9 Cal);
US v Overton 567 F.3d 1148 (2009 CA9 Wash);
US v Sanchez-Corbarruvias, 65 F.3d 781 (1995 CA Cal);
US v Schales. 546 F.3d 965, 977 (2008 CA9 Cal);
US v Teague. 722 F.3d 1187 (2013 CA9 Cal);
Mansolilli v US, 2 F.2d 42, 43;
Mevers v US. 3 F.2d 379, 380;
Williams v Warden. 422 F.3d 1006 2/15/05;

Fines: Austin v US. 509 US 602 (1993);
Browning-Ferris Indus v Kelco Disposal Inc.. 492 US 257 (1989);
USA vVerkler 20-30161

Fuentes v. Shevin. 407 U.S. 67, 80 (1972);
McVeigh v. United States. 11 Wall. 259, 266-267 (1871),
Solem v. Helm. 463 U.S. 277, syllabus #1 (1983);
Timbs v Indiana. 586 US _ (2019);
Trop v Dulles. 256 US 86 (1958);
United States v. Baiakaiian. 524 U.S. 321, 334 (1998);
United States v. James Daniel Good Real Property. 510 U.S. 43, 48 *62 (1993);
Waters-Pierce Oil Co. v. Texas. 212 U.S. 86 (1909);
US v Hvnnolite. 65 F. 3d 115l(4th Cir 1995).

The right to appeal and win: Abney v US. 431 US 651 (1977);
Bank of Columbia v. Sweeney. 26 U. S. 569;
Blackledge v Perry. 417 US 21, 28*9 (1974);
Faretta v California. 422 US 806, 814-15 (1975);
Cobbledick v. United States. 309 U. S. 323. 328-9 (1940);
Cohen v. Beneficial Indus. Loan Corn,. 337 US 541, 546-7 (1949);
Hambing v US. 418 US 87, 117 (1974);
Rodriquez v US 395 US 327 (1969);
Covev v US (2000, DC SD) 109 F.Supp 2d 1135;
US v Morgan. 346 U.S. 502, Syllabus par 1-2, #2, 3, 5, 7, p508, 13 (1954);
US v River Rouge Improvement Co.. 269 U. S. 411. 269 U. S. 414;
US v Spinner. 180 F.3d 514, 516 (3rd Cir 1999);
US v Sherman. 421 F.2d 198, 199 (4th Cir 1970);
USA v Verkler 20-30161

US V Tavlor (1962, CA4 NC) 303 F.2d 165;
Bradbury v Wainwright. 658 F.2d 1083, 1086 (5th Cir 1981), cd, 456 US 992 (1982);
Cook v US (1975, CA Tex) 521 F.2d 875;
Sierra v Govt of Canal Zone (1977, CA5 Canal Zone) 546 F.2d 77, 79, 81, 82;
US v Sanders. (1998, CA5 Miss) 157 F.3d 302, 305;
Thor v US (1977, CA5 Tex) 554 F.2d 759;
Campbell v Marshall. 769 F.2d 314, 321 (6th Cir 1985), cert den 475 US 1048 (1986);
Brandom v US. 431 F.2d 1391, 1400 (7th Cir 1970);
US v Khorrami. 895 F.2d 1186, 1191 (7th Cir 1990);
US v Mavo. 721 F.2d 1084, 1087 (7th Cir 1983);
US v Nesbilt. 852 F.2d 1502, 1509 (7th Cir 1988), Cert denied 488 US 1015 (1989);
US v Whalev. 830 F.2d 1469, 1473 (7th Cir 1987), Cert denied 108 S Ct 1738 (1988);
US v Over. 784 F.2d 812, 816 (7th Cir 1986);
US v Moore. 764 F.2d 476, 478 (7th Cir 1985);
US v Vega. 860 F.2d 779, 793 (7th Cir 1988);
Johnson v Renico. 314 F.Supp 2d 700, 706 (DC ED Mich 2004);
Slaughter v. City of Maplewood. 731 F.2d 587, #2 (8th Cir. 1984);
White v US. 858 F.2d 416, 422 (8th Cir 1988), cert den 489 US 1029 (1989);
US v Camp (1976, CA8 Iowa) 541 F.2d 737;
United States v. Moore. 159 F.3d 1154, 1158-9 (9th Cir. 1998);
Craig v US (1937, CA9 Cal) 89 F.2d 980;
Dovle v US (1983, CA9 Or) 721 F.2d 1195;
Crow v US. 397 F.2d 284, 285 (10th Cir 1968);
Woodward v Williams. 263 F.3d 1135. 1140 (10th Cir.200l)>‘
USA v Verkfer 20-30161

US v Burch (1999, CA10 Colo) 169 F.3d 666;
Williams v US (1960, CA10 Kan) 283 F.2d 59;

Right to an impartial judge: Glasser v US. 315 US 60, 72 (1942);
Goldberg v Kelly. 397 US 254 (1970);
Hallidav v US. 380 F. 2d 270 (1st Cir 1967);
Hamdi v Rumsfeld. 542 US 547, III D (2004):
In re Murchison. 349 US 133 (1955);
Old Colony Trust Co. v Commissioner of Int Rev, 279 US 716 (1929);
Turney v. Ohio, 273 U. S. 510, Syllabus, # 1, 522 (1927);
United Retail and Wholesale Employees Teamsters Union Local No. 115 Pension
Plan v Yahn and McDonnell. Inc, 787 F.2d 128, 138 (3rd Cir 1985);
US v Cross (3rd Cir 2002) ? p 314;
Great Western Mining and Material Co v Fox Rothschild LLP (2010, CA3 NJ)
615 F.3d 159, cert den (2011, US) 131 S Ct 1798;
Nesses v Shepard. 68 F.3d 1003, 1005 (7th Cir 1995);
Stewart v Jozwiak. 346 F. Supp. 1062 (E.D. Wis. 1972);
Board of Educ. v. Rice, [1911] A.C. 179; H;
Rex v. University of Cambridge. I Str. 557, 568 (1723).

Right to an hearing: Armstrong v. Manzo. 380 U.S. 545, 550 (1965);
Baldwin v Hale. 68 US 223, 233 (1863);
USA vVerkler 20-30161

Blackledge v Perry. 417 US 21 (1974);
Boddie v. Connecticut. 401 U.S. 371, 378 (1971);
Bordenkircher v Haves. 434 US 357, 364 (1978);
Capector v A.T. Massey Coal Co.. Inc., 556 US _ No. 08*22, slip op. at 6, 7, 9;
Carev v Piphus. 435 US 247, 259 (1978);
Cole v Arkansas. 333 US 196, 201 (1948);
DeJong v Oregon. 299 US 353, 362, (1937);
Dunn v US. 442 US 100 (1979);
Eaton v Tulsa. 415 US 697, 698*99 (1974);
Fuenres v Shevin. 407 US 67, 80*1 (1972);
Garner v Louisiana. 368 US 157, 163*4 (1961);
Goldberg v. Kelly. 397 U.S. 254, 267*68, 271 (1970);
Green v Lindsev. 456 US 444 (1982);
Gronpi v Leslie. 404 US 496, 30L ED 2d 632, 92 S Ct 582 (1972).
Goss v. Lopez. 95 S. Ct. 729 (1975);
In Re Murcbinson. 349 US 133 (1953);
Joint Anti-Fascist Refugee Committee v. McGrath. 7 341 U.S. 123, 171*2 (1950);
Jones v Flowers, 547 US 254, 267*8, 271 (1970);
Londoner v. Denver, 210 U.S. 373, 386 (1908);
MachibrodavUS. 368 US 487, 495 (1962);
Marshall v Jerico. 466 US 238, 242 (1980);
Mathews v Eldridge. 424 US 319. 333. 344 (1976);
McVeigh v. United States. 11 Wall. 259, 266*267 (1871).
Mullane v. Central Hanover Bank & Trust Co.. 339 U.S. 306, 314*15 (1950);
USA v Verkler 20-30161

North Ga. Finishing. Inc, v. Di-Chem. Inc.. 95 S. Ct. 719, 723 (1975);
Richards v Jefferson County. 517 US 220, 235 (2006);
Robinson v Hanrahan. 409 US 38 (1974);
Schweikerv McClure. 456 US 188, 195 (1982);
Tumev v Ohio. 273 US 510 (1927);
US v Havman. 342 US 205, 220 (1952);
United States v. James Daniel Good Real Property. 510 U.S. 43, 48 -62 (1993);
Walker v Johnston. 312 US 275, 287 (1941);
Williams v PN. 479 US _ No 15-5040, slip op at 6;
Willner v. Committee on Character. 373 U.S. 96, 102 (1963);
Wolff v. McDonnell. 418 U.S. 539, 557-58 (1974);
Wong Yang Sung v McGrath. 399 US 33 (1950);
Mack v US (1980, CA1 Mass) 635 F.2d 20;
Great Western Mining and Material Co v Fox Rothschild LLP (2010, CA3 NJ)
615 F.3d 159, cert den (2011, US) 131 S Ct 1798;
Billington v Underwood (1980, CA5 GA) 613 F.2d 91;
Nesses v Shepard. 68 F.3d 1003, 1005 (7th Cir 1995);
Marshall v Jerrico. Inc.. 446 US 238, 242 (1980);
Billington v Underwood (1980, CA5 GA) 613 F.2d 91!
US v Gonzalez (2002, CA5 Tex) 309 F.3d 8824;
Stewart v. Jozwiak. 346 F. Supp. 1062, 1064 (E.D. Wis. 1972);
Iaea v Sunn. 800 F.2d 861, 867 (9th Cir 1986);
US v Estrada (1988, CA10 NM) 849 F.2d 1304;

USA v Verkler 20-30161

Welinitv v Page. 420 F.2d 935, 936 (10th Cir 1970).
Joint Anti-Fascist Comm, v McGrath. p349 ? (1950).

Breach of contract needs to stop if the government has any honor:
Bovkinv Alabama. 395 US 238, 243) 1969);
McCarthy v US. 394 US 459, 466 (1969);
Puckett v US. 129 S Ct 1423, 1429 (2009);
Santobello v NY. 404 US 257 (1971);
US v Puckett. 556 US 129, 129 S Ct 1423, 173 L Ed 166 (2009);
Taylor v Illinois, 484 US 400, 417-8, and n 24;
US v Pollard. 959 F. 2d 1011 (295 App DC 7) (9/10/91);
Kingsley v US. 968 F.2d 109 (1992, CA1 Mass);
Dunn v Collaran. 247 F.3d 450, 462, Penn 12/7/2000;
Cosbv v Muncy (1979, ED Va) 469 F Supp 658;
Bryan v US. 492 F.2d 775, 778 (5th Cir);
US v Ammirato. 670 F.2d 552, 554-5 (5th Cir 1982);
US v Block. 660 F.2d 1086, 1091 (5th Cir 1981);
US v Saling. 205 F.3d 764 (5th Cir 2000);
US v Gonzalez (2002, CA5 Tex) 309 F.3d 882;

It is an abuse of discretion to apply the wrong legal standard the courts need to stop
their abuse: Goldberg v Kelly. 397 US 254 (1970);
Johnson v Zerbst. 304 US 458 (1938);
MaehilrodavUS. 368 US 487 (1962);
USAvVerkler 20-30161

Marino v Ragan, 332 US 561 (1947);
Hallidav v US. 380 F. 2d 270 (1st Cir 1967);
Rizzo v US. 516 F.2d 789, 793-4 (2nd Cir 1975);
US v Bethany. 489 F.2d 91, 92 (5th Cir 1974);
US v Dozier. 672, F.2d 531, #100 (5th Cir 1982);
US v Untiedt. 479 F.2d 1265, 1266 (8th Cir 1973);
US v Hilver (1976, CA8 Neb) 543 F.2d 41, 42-3;
Kalmbach. Inc, v. Ins. Co. of State of Penns.. 529 F.2d 552, 556 (9th Cir. 1976);
US v Ruiz. 257 F.3d 1030, 1033 (9th Cir. 2001);
Burgess v US (1963 CA9 Cal) 319 F.2d 345;
Butgess v US (1963 CA9
Arcev Garcia. 434 F.3d 1254, 1260 (11th Cir 2006).
\

Cruel and unusual punishment:
Lockver v Andrade. 538 US 63 (2003);
Whitnev v Albers. 475 US 312 (1986).
Ferrara v US (2006, CA1 Mass) (1st Cir 2006) 456 F.3d 278, 17th pg.

The right of every individual to claim protection of the Constitution and laws:
Agnello v US. 269 US 20, 32 (1925);
Alden v Maine. 527 US 706, 812, 144 L Ed 2d 636, 713 (1999);
Baker v Carr. 369 US 186, 208, 7 L Ed 2d 663, 680, 82 S Ct 691 (1962);
Bell v Maryland. 378 US 226, 312, 12 L ED 2d 822, 847, 84 S Ct 1814 (1964);
USA v Verkler 20-30161

Berger v US. 295 US 78, 82 (1935);
Bivens v Six Unknown Fed. Narcotics agents, 403 US 388, 397 (1971);
Blackledge v Perry. 417 US 21, 28-9 (1974);
Bovd v US. 176 US 616 (1886);
Briscoe v Lahue. 460 US 325, 369, 75 Led 2d 96, 129 (1983);
Butz v Eeonomou. 438 US 478, 485, 57 L Ed 2d 895, 902-3, 98 S Ct 2894 (1977);
Bvars v US. 273 US 28 (1927);
Chaffin v Stvnchcombe. 412 US US 17, 32-3 n 20 (1973);
Davis v Passman. 422 US 228, 242, 60 L Ed 2d 846, 860, 99 S Ct 2264 (1979);
Deutch v US. 367 US 456, 471 (1961);
Ex parte Bain. 121 US 1, 13 (1887);
Ex parte Wilson. 114 US 417, 429 (1885);
Flaxer v US. 358 US 147, 151 (1958);
Glasser v US. 315 US 60, 72 (1942);
Gouled v US. 255 US 298, 298, 313 (1921);
Grau v US. 287 US 124 (1932);
Gregory v Chicago. 394 US 111, 112 (1969);
Kercheval v US. 274 US 220, 223;
Lone Wolf v Hitchcock. 187 US 553, 47 L Ed 299;
Louisiana v Jumel. 107 US 711, 743, 27 L Ed 448;
Lujan v Defenders of Wildlife. 504 US 555, 606 (1992);
MachibrodavUS. 368 US 487, 493 (1962);
Mallov v Hogan. 378 US 1, 7 (1964);
Marburv v Madison. 1 Cranch, 137, 163, 2 L. Ed 60 (1803);
USA v Verkler 20-30161

5

McCandless v US. 298 US 342, 347 (1936);
Nixon v Fitzgerald. 457 US 731, 783, 789, 73 L Ed 2d 349, 384, 383 (1981);
Oklahoma City v Tuttle. 471 US 808, 85 L Ed 2d 791 (1985);
Patton v US. 281 US 276, 292 (1930);
Russell v US. 369 US 749, 763-5 (1962);
Saeher v US. 356 US 576, 577 (1958);
Shelton v US. 356 US 26;
Sinclair v US. 279 US 263, 296*7 (1929);
Smith v O’Gradv. 312 US 329 (1941);
Smith v US. 360 US 1, 9, 10 (1959);
US v Groves. 571 F.2d 450, 453 (9th Cir 1978);
US v Jackson. 390 US 570 (1968);
US v Johnson 390 US 563 (1968);
US v Leon. 468 US 897, L Ed 2d 677 (1984);
Walev v Johnston. 316 US 101, 101, 104-5 (1942);
Watkins v US. 354 US 178, 208 (1957);
Weeks v US. 323 US 383 (1914);
Wilkie v Rohhins. 551 US 537, 168 L Ed 2d 389, 416;
Yaulor v Beckham. 178 US 548, 44 L Ed 1187, 1023;
Brusbon v US (2008, Dist Col App) 957 A2d 931;
US v Misha-Aldarondo (2007, CA1 Puerto Rico) 478 F.3d 52;

USA v Verkler 20-30161

US V Achtner. 144 F.2d 49, 51 (2d Cir 1944);

5

US v Noble. 156 F.2d 315, 318 (3rd Cir 1946);
Mullins v US. 382 F.2d 258 (4th Cir 1967);
Leonard v US. 231 F.2d 588 (5th Cir 1956);
Schautz v Beto. 416 F.2d 214, 216, # 7, 9 (5th Cir 1969);
US v London. 550 F.2d 206, 211 (5th Cir 1977);

4

US v McDowell (1962, CA6 Tenn) 305 F.2d 12, cert den 371 US 927 (1962);
US v Esposito. 771 F.2d 283, 288 (7th Cir 1985);
US v Cironda. 758 F.2d 1201, 1210 (7th Cir 1985);
US v Moselv. 786 F.2d 1330, 1334 (7th Cir 1986);
Johnson v Renico, 314 F.Supp 2d 700, 709 (DC ED Mich 2004);
Adkins v US. (8th Cir 1999) 298 F.2d 842;
Cummings v US. 398 F.2d 377, 382 (8th Cir 1968);
Gilinskv v US. 335 F.2d 914, 917 (9th Cir 1964);
US v DeMarco. 550 F.2d 1224, 1226 (9th Cir 1977);
US v Groves. 571 F.2d 450, 453 (9th Cir 1978);
US v King. 587 F.2d 956, 963 (9th Cir 1978);

5

US v Morrison. 536 F.2d 286, 288, overview, outcome (9th Cir 1976);

5

US v Oaks. 527 F.2d 937, 940 (9th Cir 1975);
US v Seifuddin (1987, CA9 Or) 820 F.2d 1074;
Nelson v US. 406 F.2d 1136 (10th Cir 1969);
Smith v Campbell (2008, CA11 Fla) 295 Fed App 314.

USA v Verkler 20-30161

5

Government cannot commit a crime, a tort or lie against an American:
Aenello v US. 269 US 20, 32 (1925);
Arizona v Youngblood. 488 US 51, 55 (1988);
Bannon & Mulkev v US. 156 US 464, 468, 469 (1895);
Bell v Wolfish. 441 US 520 (1979);
Berger v US. 295 US 78, 79, 88 (1935);
Bovd v US. 176 US 616, 617, 630, 635 (1886);
Bradv v Maryland. 373 US 83 (1963);
Brady v US. 397 US 742, 755 (1970);
Braverman v US. 317 US 49, 53 (1942);
Brown v Miss.. 297 US 276, 281-7 (1936);
Butler v US. 455 US 945 (1982);
Bvars v US. 273 US 28, 32 (1927);
Corlev v US. 556 US 303, 309 (2009);
Davis v St of NC. 384 US 737, 752-3 (1966);
Glasser v US. 315 US 60, 80;
Gouled v US. 255 US 298, 298, 304 (1921);
Graham v Conner. 490 US 386, 395, 398 (1989);
Kvles v Whitlev. 514 US 419, 432 (1995);
Machibroda v US, 368 US 487, 493 (1962);

USA v Verkler 20-30161

McNabb v US. 318 US 332, 340, 343, 345, 347 (1943);
Millhouse v US. 434 US 1072, ?-1090 (1978);
Miranda vAZ. 384 US 436, 447 (1966);
Mooney v Holohan, 294 US 103 (1935);
Moore v Dempsey. 261 US 86, 89-90 (1923);
Moore v Illinois. 408 US 786, 794-5 <1972);
Nanus v Illinois. 360 US 264 (1959);
North Carolina v Pearce. 395 US 711, 723-5 <1969);
Re Oliver. 333 US 257, 273 (1948);
Pierce v US. 253 US 239, 244 (1920);
Pinkerton v US. 328 US 640, 640 (1946);
Roe v Wade. 410 US 113, 152 (1973);
Salinas v US. 522 US 52, 63-5 <1997);
Shelton v US. 356 US 26;
Sinclair v US. 279 US 263, 296-7 (1929);
US v Ferreira. 54 US 40, 51 (1851);
US v Guest 363 US 745 (1966);
US v Lefkowitz. 285 US 452, 464, 466-7 (1932);
US v Mitchell. 322 US 65, 67, 70, 88 (1944);
US v Nardello. 393 US 286, 286-289 (1969);
USA v Verkler 20-30161

US V Nixon. 418 US 683, 701 (1974);
US v Rabinowich. 238 US 78, 86 (1915);
Upshaw v US. 335 US 410, 413, summary (1948);
Webb v Texas. 409 U.S. 91, 95, 93 S.Ct. 351, 34 L.Ed.2d 330 (1972);
Weeks v US. 323 US 383, 383 (1914);
BvnumvUS. 104 US App. D.C. 368, 262 F.2d 465, 466*7 (1958);
Jones v Horne (2011, App DO) 394 US App DC 361, 634 F.3d 588;
US v Barker (1976, App DC) 198 US App 174, 546 F.2d 940;
US v Ehriichman (1976, App DC) 178 US App DC 144, 546 F.2d 910,
39 ARL Fed 604;
US v Ellis (1942, DC SC) 43 F Supp 321;
US v King (1973, App DC) 157 US App DC 179, 482 F.2d 768, 776;
US v Welch (1994, DC Me) 849 F Supp 5, 6*8;
Ferrara v US (2006, CA1 Mass) (1st Cir 2006) 456 F.3d 278, 26th, pg;
US v Angiulo, 847 F.2d 956, slip op at 14*15 (1st Cir 1988);
US v Bvrne. (1st Cir. 2006) 435 F.3d 16, 18*20;
US v Cruz. 568 F.2d 781, 782*3 (1st Cir 1978);
US v DeVincent. 632 F.2d 155, 159 (1st Cir 1980);
US v Hathaway. 534 F.2d 386, 393 (1st Cir 1976);
US v Ruiz. 905 F.2d 499, 508, # 3,39,40 (1st Cir 1990);
US v Winter. 663 F.2d 1120, 1136 (1st Cir 1981);
Wilkins v US. US Dist Ct Mass 13*1637 (1st Cir 2014);
Hunt v Weatherbee. 626 F.Supp 1097, 1107 (D.Mass. 1986);

USA v Verkler 20-30161

5

US v Torres Lopez (1988, CA1 Puerto Rico) 851 F.2d 520, 524,'
US v Weilner (1993, CA1 Mass) 3 F.3d 17;
US v Weiner (1993, CA1 Mass) 3 F.3d 17;
Johnson v Nvack Hope, 86 F 3d 8, 12 (2nd Cir 1996);
US V Angohlli 660 F.2d 23, 30-5, #1-2 (2»d Cir 1981);
US v Mareiotta. 688 F.2d 108, 132-3, #1,2,4,5,8-10,84 (2nd Cir 1982);
US v Marranese. 486 F.2d 918 921 (2nd Cir 1973);
US v Matera. 489 F.3d 115, 121 (2d Cir 2007);
US v Meiia. 545 F.3d 179, 206-7 (2d Cir 2008);
US v Natale. 526 F.2d 1160, 1168*9 (2”d Cir 1975);
US v Sears. 544 F.2d 585, 587 (2nd Cir 1976);
Dickerson v US Steel Corn., 439 F.Supp 55, 67 (ExD. Pa 1977);
US v Brennan. 629 F Supp 283 (1986, ED NY);
US v Bufalino (1981, SD NY) 518 F Supp 1190;
US v Diaz (1999, CA2 Conn) 176 F.3d 52, 79, 52 Fed Rules Evid Serv 380;
US v Manton (CCA2d) 107 F(2d) 834, 839;
US v Middleton. (1965, CA2 NY) 344 F.2d 78, overview;
US v Castro. 411 Fed Appx 415 (2011 CA2 NY);
US v Middleton. (1965, CA2 NY) 344 F.2d 78, overview;
Wolfish v Levi (1978, CA2 NY) 573 F.2d 118, 118;
US v Bacheler. fill F.2d 443, 450, #1,2,35 (3rd Cir 1979);

USA v Verkler 20-30161

US V Cerilli. 603 F.2d 415 (3rd Cir 1979);
US v Cross (3rd Cir 2002) 310-3;
US v Frumento. 563 F.2d 1003, ?-1092 (3rd Cir 1977);
US v Mazzei. 521 F.2d 639,643-4, #1,17,37 (3rd Cir 1975);
US v McDade. 28 F.2d 283 (3rd Cir 1995);
US v Twigg. 588 F.2d 373, 381 (3d Cir. 1978);
Dickerson v US Steel Coro,, 439 F.Supp 55, 67 (ExD. Pa 1977);
Giuffre v Brissell (1994, CA3 NJ) 31 F.3d 1241;
Govt of Virgin Is v Solis (1964, CA3 Vi) 334 F.2d 517!
Hubbard v Tavlor (2005, CA3 Del) 399 F.3d 150;
US v DiSalvo (1994, CA3 Pa) 34 F.3d 1204, proc posture, 1211, 1244;
US v Feliziani (1979, ED Pa) 472 F.Supp 1037, 1046;
US v Guadalupe (2005, CA3 PA) 402 F.3d 409;
US v Vega (2006, CA3) 184 Fed Appx 236;
US v Altomare. 625 F.2d 5, 7-8 (4th Cir 1980);
US v Baker. 617 F.2d 1060, #1, 9 (4th Cir 1980);
US v Long. 651 F.2d 239, 241-2, #1,2,21 (4th Cir 1981);
Carpenter v US (1959, CA4 Va) 264 F.2d 565, 572;
Sutton v US (1959, CA4 Va) 267 F.2d 271;
Crowe v Lucas. 595 F.2d 985, 993 (5th Cir 1979);
Shelton v US. 246 F.2d 571, 572 n.2 (5th Cir 1957), rev’d 256 US 26 (1958);
US v Brown. 555 F.2d 407, 415 (5th Cir 1977);
US v Dozier. 672, F.2d 531, 543 n8, #1-14,16,32,114-5 (5th Cir 1982);
USA vVerkler 20-30161

US V Hammond. 598 F 2d 1008, 1012-3 (5th Cir 1979);
US v Miller. 799 F 2d 985, 988 (5th Cir 1986);
US v Nakaladski. 481 F.2d 289, 298 (5th Cir 1973);
US v Tonev. 598 F.2d 1349, 1355 (5th Cir 1979);
US v Vaden. 912 F.2d 780, 781 (5th Cir 1990);
US v Welch. 656 F.2d 1039, 1039-47, 1057, 1059, 1060, 1062, 1064-5, 1067-70,
1, A,C,D,III A, 1,C, 1,D, 1,2 (5th Cir 1981);
US v Wright. 797 F.2d 245, 249-50 (5th Cir 1986);
Cuoit v Jones (1987, CA5 La) 835 F.2d 82;
Guerra v Collins. 916 F.Supp 620 (S.D. Tex 1995);
US v Hinoiosa (2012, CA5 Tex) 2012 US App LEXIS;
US v Morado (1972, CATex) 454 F.2d 167;
US v Partida. 385 F.3d 540, 562, #2,83,89 (5th Cir 2004);
US v Tonev. 598 F.2d 1349, 1355 (5th Cir 1979);
US v Welch. 656 F.2d 1039 (5th Cir 1981);
US v Wright. 797 F.2d 245, 249-50 (5th Cir 1986);
US v Phillips (1981, CA5 Fla) €64 F.2d 971;
US v Calvert. 498 F.2d 409 (6th Cir 1974);
US v Chambers. 382 F.2d 910, 913-4 (6th Cir 1967);
US v Leon. 534 F.2d €67 (€th Cir 1976);
US v O’Donnell. 510 F.2d 1190 (6th Cir 1975) cert denied 421 US 1001;
USA v Verkler 20-30161

US V Sivils. 960 F.2d 587, 596, #2,23,73 (6th Cir 1992);
US v Smith. 500 F.2d 293 (6th Cir 1974);
US v Thomas. 488 F 2d 334 (6th Cir 1973);
US v Thompson. 685 F.2d 993, 998-1000, #2,39,45,53-6, 69 (6th Cir 1982);
US v Tines. 70 F.3d 891, 893 (6th Cir 1995);
Malone v Colver (1983, CA6 Tenn) 710 F.2d 258!
US v Carson (2009, CA6 Mich) 560 F.3d 566, posture, 570-2, 590;
Branion v Gramly, 855 F.2d 1256 (7th Cir 1988);
Nesses v Shepard. 68 F.3d 1003, 1005 (7th Cir 1995);
US v Braasch. 505 F.2d 139, posture, 141-2, 148, 151 (7th Cir 1974);
US v Blackwood. 768 F.2d 131, 134-6, #2,3,7,60 (7th Cir 1985);
US v Castillo. 814 F.2d 351, 353 (7th Cir 1987);
US v Coeweil. 486 F.2d 823 (7th Cir 1973);
US v Connecticut. 769 F.2d 420 (7th Cir 1985);
US v Craig. 573 F.2d 455 (7th Cir 1977);
US v Crowlev. 504 F.2d 942, outcome, 993-995 n 5 (7th Cir 1974);
US v Devine. 787 F.2d 1086 (7th Cir 1986);
US v Gironda. 758 F.2d 1201, 1217 (7th Cir 1985);
US v Griffin. 827 F.2d 1108, 1116 (7th Cir 1987);
US v Grzvwacz. 603 F.2d 682, 686-7, 690, #1-10,12-20,22-25,29,36 (7th Cir 1979);
US v Havnes. 582 F.3d 686, 712 (7th Cir 2009);
US v Hocking. 860 F.2d 769, 769, 777 (7th Cir 1988);
US v Kaczmarek. 490 F.2d 1031, 1035 (7th Cir 1974);
US v Lee Stoller Enterprises. Inc. 652 F.2d 1313, 1317-9, 1-4,10,12 (7th Cir 1981); 37
USA v Verkler 20-30161

US V LeFevour. 798 F.2d 977, 979 (7th Cir 1986);
US v Lewis. 797 F.2d 358, 369 (7th Cir 1986);
US v Masters. 924 F.2d 1362, (7th Cir 1991);
US v Mavo. 721 F.2d 1084, 1088 (7th Cir 1983);
US v Murphy. 768 F.2d 1518, 1525-8 (7th Cir 1985);
US v Rindone. 631 F.2d 491, 491, 494-5 (7th Cir 1980);
US v Robinson. 470 F.2d 121, 123 (7th Cir 1972);
US v Schmidt. 760 F.2d 828, posture, 830-2 (7th Cir 1985);
US v Shamah. 624 F.3d 449, overview, 451-2, 455, 457-9 (7th Cir 2010);
US v Washington. 586 F.2d 1143, 1153 (7th Cir 1987);
US v West. 670 F.2d 675, 685 (7th Cir 1982);
US v Whaley. 830 F.2d 1469, 1476, 1476, 1477 (7th Cir 1987);
Bontkowski v US (1988, CA7 Ill) 850 F.2d 306;
Duran v Elrod. (1979, CA7 Ill) 542 F.2d 998;
Matzken v Hen (1984, CA7 Ill) 748 F.2d 1142;
Somberger v City of Knoxville (2006, CA7 Ill) 434 F.3d 1006;
US v Black (2008, CA7 Ill) 530 F.3d 596;
US v Caliendo (1990, CA7 Ill) 910 F.2d 429;
US v Jacquemain (2005, ED Mich) 368 F Supp 2d 800;
US v Olinger (1985, CA7 Ill) 759 F.2d 1293);
US v Roth (1988, CA7 Ill) 860 F.2d 1382, 1383, 1386;
US v Brown. 584 F.2d 252, 262 (8th Cir 1978);
IJS v Burchinal. 657 F.2d 985, 992, #28 (8th Cir 1981);
US v Clark. 646 F.2d 1259, 1261-7, #3,4,28 (8th Cir 1981);
USA v Verkier 20-30161

US V Jackson. 235 F.2d 925, 928 (8th Cir 1956);
US v Rabbitt. 523 F.2d 1014, 1019-21, 1026 (8th Cir 1978);
Green v Baron (1989, CA8 Iowa) 879 F.2d 305;
Johnson-El v Schoemehi (1989, CA8 Mo) 878 F.2d 1043;
Missouri v Blair. 691 S.W. 2d 259 (Mo 1985) en banc, cert dis 480 US 698 (1987);
Sampson v Schenck (2012, CA8 Neb) 700 F.3d 340, 11-1918;
US v Keeble (1972, CA8 SD) 459 F.2d 757;
Villanueva v George (1981, CA8 Mo) 659 F.2d 851!
Warren v Lincoln (1987, CA8 Neb) 816 F.2d 1254;
Ginoza v US, 279 F.2d 616, outcome (9th Cir I960);
Taglavore v US. 291 F.2d 262, 265 (9th Cir 1961);
US v Bagnariol. 665 F.2d 877, 893, #1, 18, 85 (9th Cir 1981);
US v Bordallo. 857 F.2d 519 (9th Cir 1988);
US v Carpenter. 961 F.2d 824 (9th Cir 1992);
US v Dischner. 974 F.2d 1502, 1511, 1515 n 15, #2*5,8,21,26, 51-2,61 (9th Cir 1992);
US v Egan. 860 F. 2d 904 (9th Cir 1988);
US v Gates. 616 F.2d 1103 (9th Cir 1980);
US v Jernigan. 582 F.2d 1211, 1213-4 (9th Cir 1978);
US v Lane. 705 F.3d 1134, 1399 (9th Cir 2013);
US v Montova. 945 F.2d 1068 (9th Cir 1991);
US v Morales, 344 F.2d 846, outcome, 851-3 (9th Cir 1965);
US v Nunez. 483 F.2d 453, 460 (9th Cir 1973);
US v Polizzi. 801 F.2d 1543, 1548 (9th Cir 1986);
Bvrnes v US (1964, CA9 Cal) 327 F.2d 825, ?, 829, 833;
Cote v US (1966, CA9 Nev) 357 F.2d 789, 793;
USA vVerkler 20-30161

6

Diaz v Gates (2005. CA9 Cal) 420 F.3d 897;
Marrow v US (1985, CA9 Cal) 772 F.2d 525;
US v Mayes (1969, CA9 Cal) 417 F.2d 771, outcome!
US v McFall (20099. CA9 Cal) 2009 US App LEXIS, posture;
US v Ohlson. (1977, CA9 Cal) 552 F.2d 1347, 1349, #2. 9;
US v Qsunde (1986. ND Cal) 638 F. Supp 171, overview, 173, 175*7, ?;
US v Graham. 581 F.2d 789' (1978, CA Wash);
US v Qsunde (1986. ND Gal) 638 F. Supp 171, overview, 173, 175*7, ?;
US V Reese (1993, CA9 Cal) 2 F.2d 870;
US v Skillmen; (1990, CA9 Cal) 922 F.2d 1370;
US v Sotoi-Lopez (1979, CA9 Or) 603 F.2d 789;
Fritts v US (10th Cir 1935) 80F.2d644;
Gooch v US (10th Cir 1936) 82 F.2d 534;
Jordan v US. 370 F.2d 126, 128 (10th Cir 1966);
US v Whalen. 076 F.2d 1346, 1348 (10th Cir 1992);
US v Zang. 703 F.2d 1186, 1191 (10th Cir 1982);
Berry v Muskogee (1990, CA10 Okla) 900 F.2d 1489;
US v Hampton. 786 F.2d 977, 979 (1986, CA10 Okla);
US v Whitney (2000, CA Kan) 229QF.3d 1296, 2000 Colo JCAK 5742;
US v Wright (1994. CAiO Okla) 43 F.3d 491, 499, #6;
US v Andrews. 765 F.2d 1491, 1496 (11th Cir 1985);
US v Arias-Izquierdo. 449 F.3d 1168, 1182 (11th Cir 2006);
US v Broadwell. 870 F.2d 594, 602 (11th Cir 1989);
US v Cola, 719 F.2d 1120, 1124 (11* Cir 1983);
US v Heller. 830 F 2d 150, 152*3 <11th Cir 1987);
USA v Verkler 20-30161

!l
The 6th Amendment
18 U.S. Code § 3006A
Fed. R. Crim. P. 5
i

Fed. Rule of Crim. Proc. 11
Fed. Rule of Crim. Proc. 44

Double Jeopardy and Multiple Punishments Prohibited:
’

The Fifth Amendment
42 USC §2000h-l

The right to appeal or collateral attack and win:
The Preamble to the US Constitution
Article 1 Section 8

*

Article .1 Section 9
Article 3 Sections 1 with Section 2
The Fifth Amendment
28 U.S. Code § 1292
Federal Rule of Appellate Procedure 3
Fed. Rule of Crim. Proc. 44(a)

Right to an impartial judge-'
The Fourth Amendment
28 USC sec 455(a)(b)(l)(5)(ii)(iii)(iv)(c)(e)

Right to an hearing:
USA v Verkler 20-30161

The Ninth Amendment
The Tenth Amendment
The Fourteenth Amendment

18 U.S. Code § 4
18U.S. Code §211
18 U.S. Code § 241
18 U.S. Code § 643
18 U.S. Code § 645
18 U.S. Code § 646
18 U.S. Code § 648
18 U.S. Code § 872
18 U.S. Code § 875
18 USC § 880
18 U.S. Code § 1201
18 U.S. Code § 1341
18 U.S. Code § 1346
18 U.S. Code § 1506
18 U.S. Code §1512
Federal Rule of Criminal Procedure 49

USA v Verkler 20-30161

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

DUE PROCESS

The First Amendment states, “Amendment I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof! or abridging the freedom of speech, or of
the press! or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.”
The 4th Amendment states, “Fourth Amendment The right of the people to be secure
in their persons, houses, papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issue, but upon probable cause, supported by
Oath or affirmation, and particularly describing the place to be searched, and the persons
or things to be seized.
The 5th Amendment states;
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb! nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law! nor shall private property be
taken for public use, without just compensation.

The Sixth Amendment states,
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation! to be confronted with the witnesses against him! to have

USA v Verkler 20-30161

compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.

Federal Rule of Criminal Procedure 4 states,
Rule 4 Arrest Warrant or Summons on a Complaint
(a) ISSUANCE. If the complaint or one or more affidavits filed with the
complaint establish probable cause to believe that an offense has been
committed and that the defendant committed it, the judge must issue
an arrest warrant to an officer authorized to execute it. At the request
of an attorney for the government, the judge must issue a summons,
instead of a warrant, to a person authorized to serve it....
(b) Form.
(l) Warrant. A warrant must:...
(D) be signed by a judge.
(c) Execution or Service, and Return.
(l) By Whom. Only a marshal or other authorized officer may
execute a warrant...

Rule 16. Discovery and Inspection
(a) Government's Disclosure.
(l) Information Subject to Disclosure.
(A) Defendant's Oral Statement. Upon a defendant's request, the government must
disclose to the defendant the substance of any relevant oral statement made by the
defendant, before or after arrest, in response to interrogation by a person the
defendant knew was a government agent if the government intends to use the
statement at trial.
(B) Defendant's Written or Recorded Statement. Upon a defendant's request, the
government must disclose to the defendant, and make available for inspection,
copying, or photographing, all of the following:
(i) any relevant written or recorded statement by the defendant if:
• statement is within the government's possession, custody, or control; and
• the attorney for the government knows—or through due diligence could
know—that the statement exists;
(ii) the portion of any written record containing the substance of any relevant oral
statement made before or after arrest if the defendant made the statement in
USA v Verkler 20-30161

response to interrogation by a person the defendant knew was a government agent;
and
(iii) the defendant's recorded testimony before a grand jury relating to the charged
offense.
(C) Organizational Defendant. Upon a defendant's request, if the defendant is an
organization, the government must disclose to the defendant any statement described
in Rule 16(a)(1)(A) and (B) if the government contends that the person making the
statement:
(i) was legally able to bind the defendant regarding the subject of the statement
because of that person's position as the defendant's director, officer, employee, or
agent; or
(ii) was personally involved in the alleged conduct constituting the offense and
was legally able to bind the defendant regarding that conduct because of that
person's position as the defendant's director, officer, employee, or agent.
(D) Defendant's Prior Record. Upon a defendant's request, the government must
furnish the defendant with a copy of the defendant's prior criminal record that is
within the government's possession, custody, or control if the attorney for the
government knows—or through due diligence could know—that the record exists.
(E) Documents and Objects. Upon a defendant's request, the government must
permit the defendant to inspect and to copy or photograph books, papers, documents,
data, photographs, tangible objects, buildings or places, or copies or portions of any of
these items, if the item is within the government's possession, custody, or control and:
(i) the item is material to preparing the defense!
(ii) the government intends to use the item in its case-in-chief at trial; or
(iii) the item was obtained from or belongs to the defendant.

Federal Rule of Criminal Procedure 41 states, “Rule 41. Search and Seizure
(a) Scope and Definitions.
(1) Scope. This rule does not modify any statute regulating search or seizure, or the
issuance and execution of a search warrant in special circumstances.
(2) Definitions. The following definitions apply under this rule:
(A) “Property” includes documents, books, papers, any other tangible objects, and
information.
(B) “Daytime” means the hours between 6:00 a.m. and 10:00 p.m. according to local
time.
(C) “Federal law enforcement officer” means a government agent (other than an
attorney for the government) who is engaged in enforcing the criminal laws and is

USA v Verkler 20-30161

within any category of officers authorized by the Attorney General to request a search
warrant.
(D) “Domestic terrorism” and “international terrorism” have the meanings set out in
18 U.S.C. §2331.
(E) “Tracking device” has the meaning set out in 18 U.S.C. §3117 (b).
(b) VENUE FOR A WARRANT APPLICATION. At the request of a federal law enforcement officer
or an attorney for the government:
(1) a magistrate judge with authority in the district—or if none is reasonably available,
a judge of a state court of record in the district—has authority to issue a warrant to
search for and seize a person or property located within the district>
(2) a magistrate judge with authority in the district has authority to issue a warrant
for a person or property outside the district if the person or property is located within the
district when the warrant is issued but might move or be moved outside the district
before the warrant is executed;
(3) a magistrate judge—in an investigation of domestic terrorism or international
terrorism—with authority in any district in which activities related to the terrorism may
have occurred has authority to issue a warrant for a person or property within or outside
that district;
(4) a magistrate judge with authority in the district has authority to issue a warrant to
install within the district a tracking device! the warrant may authorize use of the device
to track the movement of a person or property located within the district, outside the
district, or both; and
(5) a magistrate judge having authority in any district where activities related to the
crime may have occurred, or in the District of Columbia, may issue a warrant for
property that is located outside the jurisdiction of any state or district, but within any of
the following:
(A) a United States territory, possession, or commonwealth;
(B) the premises—no matter who owns them—of a United States diplomatic or
consular mission in a foreign state, including any appurtenant building, part of a
building, or land used for the mission's purposes! or
(C) a residence and any appurtenant land owned or leased by the United States and
used by United States personnel assigned to a United States diplomatic or consular
mission in a foreign state.
(6) a magistrate judge with authority in any district where activities related to a crime
may have occurred has authority to issue a warrant to use remote access to search
electronic storage media and to seize or copy electronically stored information located
within or outside that district if:
(A) the district where the media or information is located has been concealed
through technological means! or

USA v Verkler 20-30161

f
I L

»

,

r

;

.*•

i

.1

;

v
•V

i

”v

(

-*•

Mr

)

l

.:

5

i

:*

r:^

■:

r
* ' i #! : ’

1

!•

v-

*

:•

{•

i
■J!

*:

5 ,

*

i

>

'J'

■'N,

(B) in an investigation of a violation of 18 U.S.C. § 1030(a)(5), the media are
protected computers that have been damaged without authorization and are located in
five or more districts.
(c) Persons or Property Subject to Search or Seizure. A warrant may be issued for
any of the following:
(1) evidence of a crime!
(2) contraband, fruits of crime, or other items illegally possessed!
(3) property designed for use, intended for use, or used in committing a crime! or
(4) a person to be arrested or a person who is unlawfully restrained.
(d) Obtaining a Warrant.
(1) In General. After receiving an affidavit or other information, a magistrate judge—
or if authorized by Rule 41(b), a judge of a state court of record—must issue the warrant
if there is probable cause to search for and seize a person or property or to install and use
a tracking device.
(2) Requesting a Warrant in the Presence ofa Judge.
(A) Warrant on an Affidavit. When a federal law enforcement officer or an attorney
for the government presents an affidavit in support of a warrant, the judge may
require the affiant to appear personally and may examine under oath the affiant and
any witness the affiant produces.
(B) Warrant on Sworn Testimony. The judge may wholly or partially dispense with a
written affidavit and base a warrant on sworn testimony if doing so is reasonable
under the circumstances.
(C) Recording Testimony. Testimony taken in support of a warrant must be recorded
by a court reporter or by a suitable recording device, and the judge must file the
transcript or recording with the clerk, along with any affidavit.
(3) Requesting a Warrant by Telephonic or Other Reliable Electronic Means. In
accordance with Rule 4.1, a magistrate judge may issue a warrant based on information
communicated by telephone or other reliable electronic means.
(e) Issuing the Warrant.
(1) In General. The magistrate judge or a judge of a state court of record must issue the
warrant to an officer authorized to execute it.
(2) Contents of the Warrant.
(A) Warrant to Search for and Seize a Person or Property. Except for a trackingdevice warrant, the warrant must identify the person or property to be searched,
identify any person or property to be seized, and designate the magistrate judge to
whom it must be returned. The warrant must command the officer to:
(i) execute the warrant within a specified time no longer than 14 days!

USA v Verkler 20-30161

>

r:
:
:
'

s\

:

>,

;

vty.''"-

{

■*v

• <:■

K

Ii

S.y

4

•

.i
r.

:

<y

;

:v

•?

.1

i' ' .•

■‘i

T''*

-v,

:

l.

.

,s~.

*
:
■ i

?

■ l

' S

*■*

- i

K.

■%

;

d
Si

<
»•

V

' *7.

r

't

.s-

4

(ii) execute the warrant during the daytime, unless the judge for good cause
expressly authorizes execution at another time; and
(iii) return the warrant to the magistrate judge designated in the warrant.
(B) Warrant Seeking Electronically Stored Information. A warrant under Rule
41(e)(2)(A) may authorize the seizure of electronic storage media or the seizure or
copying of electronically stored information. Unless otherwise specified, the warrant
authorizes a later review of the media or information consistent with the warrant. The
time for executing the warrant in Rule 41(e)(2)(A) and (f)(1)(A) refers to the seizure or
on-site copying of the media or information, and not to any later off-site copying or
review.
(C) Warrant for a Tracking Device. A tracking-device warrant must identify the
person or property to be tracked, designate the magistrate judge to whom it must be
returned, and specify a reasonable length of time that the device may be used. The
time must not exceed 45 days from the date the warrant was issued. The court may, for
good cause, grant one or more extensions for a reasonable period not to exceed 45 days
each. The warrant must command the officer to:
(i) complete any installation authorized by the warrant within a specified time no
longer than 10 days.'
(ii) perform any installation authorized by the warrant during the daytime, unless
the judge for good cause expressly authorizes installation at another time! and
(iii) return the warrant to the judge designated in the warrant.
(£) Executing and Returning the Warrant.
(l) Warrant to Search for and Seize a Person or Property.
(A) Noting the Time. The officer executing the warrant must enter on it the exact
date and time it was executed.
(B) Inventory. An officer present during the execution of the warrant must prepare
and verify an inventory of any property seized. The officer must do so in the presence
of another officer and the person from whom, or from whose premises, the property
was taken. If either one is not present, the officer must prepare and verify the
inventory in the presence of at least one other credible person. In a case involving the
seizure of electronic storage media or the seizure or copying of electronically stored
information, the inventory may be limited to describing the physical storage media
that were seized or copied. The officer may retain a copy of the electronically stored
information that was seized or copied.
(C) Receipt. The officer executing the warrant must give a copy of the warrant and a
receipt for the property taken to the person from whom, or from whose premises, the
property was taken or leave a copy of the warrant and receipt at the place where the
officer took the property. For a warrant to use remote access to search electronic
storage media and seize or copy electronically stored information, the officer must
make reasonable efforts to serve a copy of the warrant and receipt on the person whose
property was searched or who possessed the information that was seized or copied.

USA v Verkier 20-30161

Service may be accomplished by any means, including electronic means, reasonably
calculated to reach that person.
(D) Return. The officer executing the warrant must promptly return it—together
with a copy of the inventory—to the magistrate judge designated on the warrant. The
officer may do so by reliable electronic means. The judge must, on request, give a copy
of the inventory to the person from whom, or from whose premises, the property was
taken and to the applicant for the warrant.
(2) Warrant for a Tracking Device.
(A) Noting the Time. The officer executing a tracking-device warrant must enter on
it the exact date and time the device was installed and the period during which it was
used.
(B) Return. Within 10 days after the use of the tracking device has ended, the officer
executing the warrant must return it to the judge designated in the warrant. The
officer may do so by reliable electronic means.
(C) Service. Within 10 days after the use of the tracking device has ended, the officer
executing a tracking-device warrant must serve a copy of the warrant on the person
who was tracked or whose property was tracked. Service may be accomplished by
delivering a copy to the person who, or whose property, was tracked?* or by leaving a
copy at the person's residence or usual place of abode with an individual of suitable age
and discretion who resides at that location and by mailing a copy to the person's last
known address. Upon request of the government, the judge may delay notice as
provided in Rule 41(f)(3).
(3) Delayed Notice. Upon the government's request, a magistrate judge—or if
authorized by Rule 41(b), a judge of a state court of record—may delay any notice
required by this rule if the delay is authorized by statute.
(g) MOTION TO Return Property. A person aggrieved by an unlawful search and seizure of
property or by the deprivation of property may move for the property's return. The motion
must be filed in the district where the property was seized. The court must receive evidence
on any factual issue necessary to decide the motion. If it grants the motion, the court must
return the property to the movant, but may impose reasonable conditions to protect access
to the property and its use in later proceedings.
(h) MOTION TO Suppress. A defendant may move to suppress evidence in the court where
the trial will occur, as Rule 12 provides.
(i) Forwarding Papers to the Clerk. The magistrate judge to whom the warrant is
returned must attach to the warrant a copy of the return, of the inventory, and of all other
related papers and must deliver them to the clerk in the district where the property was
seized.

USA vVerkler 20-30161

RIGHT TO ASSISTANCE OF COUNSEL
The Sixth Amendment to the US Constitution states,
"In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial by an impartial jury of the state and district wherein the crime
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor; and to have the assistance of counsel for his
defense."
18 U.S. Code § 3006A states, “Adequate representation of defendants
(a) CHOICE OF Plan.—Each United States district court, with the approval of the judicial
council of the circuit, shall place in operation throughout the district a plan for furnishing
representation for any person financially unable to obtain adequate representation in
accordance with this section. Representation under each plan shall include counsel and
investigative, expert, and other services necessary for adequate representation. Each plan
shall provide the following;
(1) Representation shall be provided for any financially eligible person who—
(A) is charged with a felony or a Class A misdemeanor;
(B) is a juvenile alleged to have committed an act of juvenile delinquency as
defined in section 5031 of this title?
(C) is charged with a violation of probation?
(D) is under arrest, when such representation is required by law?
(E) is charged with a violation of supervised release or faces modification,
reduction, or enlargement of a condition, or extension or revocation of a term
of supervised release?
(F) is subject to a mental condition hearing under chapter 313 of this title;
(G) is in custody as a material witness?
(H) is entitled to appointment of counsel under the sixth amendment to
the Constitution?
(I) faces loss of liberty in a case, and Federal law requires the appointment of
counsel; or
(J) is entitled to the appointment of counsel under section 4109 of this
title.
USA v Verkler 20-30161

(2) Whenever the United States magistrate judge or the court determines
that the interests of justice so require, representation may be provided for
any financially eligible person who—
(A) is charged with a Class B or C misdemeanor, or an infraction for
which a sentence to confinement is authorized; or
(B) is seeking relief under section 2241, 2254, or 2255 of title 28.
(3) Private attorneys shall be appointed in a substantial proportion of the
cases. Each plan may include, in addition to the provisions for private
attorneys, either of the following or both:
(A) Attorneys furnished by a bar association or a legal aid agency,
(B) Attorneys furnished by a defender organization established in
accordance with the provisions of subsection (g).
Prior to approving the plan for a district, the judicial council of the circuit shall
supplement the plan with provisions for representation on appeal. The district court may
modify the plan at any time with the approval of the judicial council of the circuit. It shall
modify the plan when directed by the judicial council of the circuit. The district court shall
notify the Administrative Office of the United States Courts of any modification of its
plan.
(b) Appointment of Counsel —
Counsel furnishing representation under the plan shall be selected from a panel of
attorneys designated or approved by the court, or from a bar association, legal aid agency,
or defender organization furnishing representation pursuant to the plan. In every case in
which a person entitled to representation under a plan approved under subsection (a)
appears without counsel, the United States magistrate judge or the court shall advise the
person that he has the right to be represented by counsel and that counsel will be
appointed to represent him if he is financially unable to obtain counsel. Unless the person
waives representation by counsel, the United States magistrate judge or the court, if
satisfied after appropriate inquiry that the person is financially unable to obtain counsel,
shall appoint counsel to represent him. Such appointment may be made retroactive to
include any representation furnished pursuant to the plan prior to appointment. The
United States magistrate judge or the court shall appoint separate counsel for persons
having interests that cannot properly be represented by the same counsel, or when other
good cause is shown.
(c) Duration and Substitution of Appointments.—
A person for whom counsel is appointed shall be represented at every stage of the
proceedings from his initial appearance before the United States magistrate judge or the
court through appeal, including ancillary matters appropriate to the proceedings. If at any
USA v Verkler 20-30161

time after the appointment of cotinsel the United States magistrate judge or the court finds
that the person is financially able to obtain counsel or to make partial payment for the
representation, it may terminate the appointment of counsel or authorize payment as
provided in subsection (0, as the interests of justice may dictate. If at any stage of the
proceedings, including an appeal, the United States magistrate judge or the court finds that
the person is financially unable to pay counsel whom he had retained, it may appoint
counsel as provided in subsection (b) and authorize payment as provided in subsection (d),
as the interests of justice may dictate. The United States magistrate judge or the court
may, in the interests of justice, substitute one appointed counsel for another at any stage of
the proceedings.
(d) Payment for Representation —
(l) Hourly Rate —
Any attorney appointed pursuant to this section or a bar association or legal aid agency
or community defender organization which has provided the appointed attorney shall,
at the conclusion of the representation or any segment thereof, be compensated at a rate
not exceeding $60 per hour for time expended in court or before a United States
magistrate judge and $40 per hour for time reasonably expended out of court, unless the
Judicial Conference determines that a higher rate of not in excess of $75 per hour is
justified for a circuit or for particular districts within a circuit, for time expended in
court or before a United States magistrate judge and for time expended out of court. The
Judicial Conference shall develop guidelines for determining the maximum hourly rates
for each circuit in accordance with the preceding sentence, with variations by district,
where appropriate, taking into account such factors as the minimum range of the
prevailing hourly rates for qualified attorneys in the district in which the representation
is provided and the recommendations of the judicial councils of the circuits. Not less
than 3 years after the effective date of the Criminal Justice Act Revision of 1986. the
Judicial Conference is authorized to raise the maximum hourly rates specified in this
paragraph up to the aggregate of the overall average percentages of the adjustments in
the rates of pay under the General Schedule made pursuant to section 5305 fll of title 5
on or after such effective date. After the rates are raised under the preceding sentence,
such maximum hourly rates may be raised at intervals of not less than 1 year each, up
to the aggregate of the overall average percentages of such adjustments made since the
last raise was made under this paragraph. Attorneys may be reimbursed for expenses
reasonably incurred, including the costs of transcripts authorized by the United States
magistrate M or the court, and the costs of defending actions alleging malpractice of
counsel in furnishing representational services under this section. No reimbursement
for expenses in defending against malpractice claims shall be made if a judgment of
malpractice is rendered against the counsel furnishing representational services under
this section. The United States magistrate [2] or the court shall make determinations
relating to reimbursement of expenses under this paragraph.
(2) Maximum Amounts.—
For representation of a defendant before the United States magistrate judge or
the district court, or both, the compensation to be paid to an attorney or to a bar
association or legal aid agency or community defender organization shall not exceed
$7,000 for each attorney in a case in which one or more felonies are charged, and
USA v Verkler 20-30161

$2,000 for each attorney in a case in which only misdemeanors are charged. For
representation of a defendant in an appellate court, the compensation to be paid to an
attorney or to a bar association or legal aid agency or community defender organization
shall not exceed $5,000 for each attorney in each court. For representation of a
petitioner in a non-capital habeas corpus proceeding, the compensation for each
attorney shall not exceed the amount applicable to a felony in this paragraph for
representation of a defendant before a judicial officer of the district court. For
representation of such petitioner in an appellate court, the compensation for each
attorney shall not exceed the amount applicable for representation of a defendant in an
appellate court. For representation of an offender before the United States Parole
Commission in a proceeding under section 4106A of this title, the compensation shall
not exceed $1,500 for each attorney in each proceeding,' for representation of an
offender in an appeal from a determination of such Commission under such section, the
compensation shall not exceed $5,000 for each attorney in each court. For any other
representation required or authorized by this section, the compensation shall not
exceed $1,500 for each attorney in each proceeding. The compensation maximum
amounts provided in this paragraph shall increase simultaneously by the same
percentage, rounded to the nearest multiple of $100, as the aggregate percentage
increases in the maximum hourly compensation rate paid pursuant to paragraph (1)
for time expended since the case maximum amounts were last adjusted.
(3) Waiving Maximum Amounts —
Payment in excess of any maximum amount provided in paragraph (2) of this subsection
may be made for extended or complex representation whenever the court in which the
representation was rendered, or the United States magistrate judge if the
representation was furnished exclusively before him, certifies that the amount of the
excess payment is necessary to provide fair compensation and the payment is approved
by the chief judge of the circuit. The chief judge of the circuit may delegate such
approval authority to an active or senior circuit judge.
(4) Disclosure of fees —
(A) In general.—
Subject to subparagraphs (B) through (E), the amounts paid under this subsection
for services in any case shall be made available to the public by the court upon the
court’s approval of the payment.
(B) Pre-trial or trial in progress.—If a trial is in pre-trial status or still in progress
and after considering the defendant’s interests as set forth in subparagraph (D), the
court shall—
(i) redact any detailed information on the payment voucher provided by defense
counsel to justify the expenses to the court; and
(ii) make public only the amounts approved for payment to defense counsel by
dividing those amounts into the following categories:

USA v Verkler 20-30161

(I) Arraignment and or plea.
(II) Bail and detention hearings.
(Ill) Motions.
(IV) Hearings.
(V) Interviews and conferences.
(VI) Obtaining and reviewing records.
(VII) Legal research and brief writing.
(VIII) Travel time.
(DO Investigative work.
00 Experts.
(XI) Trial and appeals.
OQI) Other.
(C) Trial completed.—
(i) In general.—
If a request for payment is not submitted until after the completion of the trial
and subject to consideration of the defendant’s interests as set forth in
subparagraph (D), the court shall make available to the public an unredacted
copy of the expense voucher.
(ii) Protection of the rights of the defendant.—
If the court determines that defendant’s interests as set forth in subparagraph (D)
require a limited disclosure, the court shall disclose amounts as provided in
subparagraph (B).
(D) Considerations.—The interests referred to in subparagraphs (B) and (C)
are—
(i) to protect any person’s 5th amendment right against self-incrimination;
(ii) to protect the defendant’s 6th amendment rights to effective assistance of
counsel;
(iii) the defendant’s attorney-client privilege;
(iv) the work product privilege of the defendant’s counsel;
USA v Verkler 20-30161

(v) the safety of any person; and
(vi) any other interest that justice may require, except that the amount of the fees
shall not be considered a reason justifying any limited disclosure under section
3006A(d)(4) of title 18. United States Code.
(E) Notice.—
The court shall provide reasonable notice of disclosure to the counsel of the defendant
prior to the approval of the payments in order to allow the counsel to request
redaction based on the considerations set forth in subparagraph (D). Upon
completion of the trial, the court shall release unredacted copies of the vouchers
provided by defense counsel to justify the expenses to the court. If there is an appeal,
the court shall not release unredacted copies of the vouchers provided by defense
counsel to justify the expenses to the court until such time as the appeals process is
completed, unless the court determines that none of the defendant’s interests set
forth in subparagraph (D) will be compromised.
(F) Effective date.—
The amendment made by paragraph (4) shall become effective 60 days after
enactment of this Act, will apply only to cases filed on or after the effective date, and
shall be in effect for no longer than 24 months after the effective date.
(5) Filing Claims.—
A separate claim for compensation and reimbursement shall be made to the district
court for representation before the United States magistrate judge and the court, and to
each appellate court before which the attorney provided representation to the person
involved. Each claim shall be supported by a sworn written statement specifying the
time expended, services rendered, and expenses incurred while the case was pending
before the United States magistrate judge and the court, and the compensation and
reimbursement applied for or received in the same case from any other source. The
court shall fix the compensation and reimbursement to be paid to the attorney or to the
bar association or legal aid agency or community defender organization which provided
the appointed attorney. In cases where representation is furnished exclusively before a
United States magistrate judge, the claim shall be submitted to him and he shall fix the
compensation and reimbursement to be paid. In cases where representation is furnished
other than before the United States magistrate judge, the district court, or an appellate
court, claims shall be submitted to the district court which shall fix the compensation
and reimbursement to be paid.
(6) New Trials —
For purposes of compensation and other payments authorized by this section, an order
by a court granting a new trial shall be deemed to initiate a new case.
(7) Proceedings Before Appellate Courts.—
If a person for whom counsel is appointed under this section appeals to an appellate
court or petitions for a writ of certiorari, he may do so without prepayment of fees and
USA v Verkler 20-30161

costs or security therefor and without filing the affidavit required by section 1915(a) of
title 28.
(e) Services Other Than counsel.—
(l) Upon Request —
Counsel for a person who is financially unable to obtain investigative, expert, or other
services necessary for adequate representation may request them in an ex parte
application. Upon finding, after appropriate inquiry in an ex parte proceeding, that the
services are necessary and that the person is financially unable to obtain them, the
court, or the United States magistrate judge if the services are required in connection
with a matter over which he has jurisdiction, shall authorize counsel to obtain the
services.
(2) Without Prior Request.—
(A) Counsel appointed under this section may obtain, subject to later review,
investigative, expert, and other services without prior authorization if necessary for
adequate representation. Except as provided in subparagraph (B) of this paragraph,
the total cost of services obtained without prior authorization may not exceed $800
and expenses reasonably incurred.
(B) The court, or the United States magistrate judge (if the services were rendered in a
case disposed of entirely before the United States magistrate judge), may, in the
interest of justice, and upon the finding that timely procurement of necessary services
could not await prior authorization, approve payment for such services after they have
been obtained, even if the cost of such services exceeds $800.
(3) Maximum Amounts.—
Compensation to be paid to a person for services rendered by him to a person under this
subsection, or to be paid to an organization for services rendered by an employee thereof,
shall not exceed $2,400, exclusive of reimbursement for expenses reasonably incurred,
unless payment in excess of that limit is certified by the court, or by the United States
magistrate judge if the services were rendered in connection with a case disposed of
entirely before him, as necessary to provide fair compensation for services of an unusual
character or duration, and the amount of the excess payment is approved by the chief
judge of the circuit. The chief judge of the circuit may delegate such approval authority
to an active or senior circuit judge.
(4) Disclosure of fees.—
The amounts paid under this subsection for services in any case shall be made available
to the public.
(5) The dollar amounts provided in paragraphs (2) and (3) shall be adjusted
simultaneously by an amount, rounded to the nearest multiple of $100, equal to the
percentage of the cumulative adjustments taking effect under section 5303 of title 5 in
USA v Verkler 20-30161

the rates of pay under the General Schedule since the date the dollar amounts provided
in paragraphs (2) and (3), respectively, were last enacted or adjusted by statute.
(£) Receipt of Other Payments.—
Whenever the United States magistrate judge or the court finds that funds are available for
payment from or on behalf of a person furnished representation, it may authorize or direct
that such funds be paid to the appointed attorney, to the bar association or legal aid agency
or community defender organization which provided the appointed attorney, to any person
or organization authorized pursuant to subsection (e) to render investigative, expert, or
other services, or to the court for deposit in the Treasury as a reimbursement to the
appropriation, current at the time of payment, to carry out the provisions of this section.
Except as so authorized or directed, no such person or organization may request or accept
any payment or promise of payment for representing a defendant.
(g) Defender Organization.—
(l) Qualifications.—
A district or a part of a district in which at least two hundred persons annually require
the appointment of counsel may establish a defender organization as provided for either
under subparagraphs (A) or (B) of paragraph (2) of this subsection or both. Two adjacent
districts or parts of districts may aggregate the number of persons required to be
represented to establish eligibility for a defender organization to serve both areas. In
the event that adjacent districts or parts of districts are located in different circuits, the
plan for furnishing representation shall be approved by the judicial council of each
circuit.
(2) Types of Defender Organizations —
(A) Federal Public Defender Organization.—
A Federal Public Defender Organization shall consist of one or more full-time salaried
attorneys. An organization for a district or part of a district or two adjacent districts
or parts of districts shall be supervised by a Federal Public Defender appointed by
the court of appeals of the circuit, without regard to the provisions of title 5 governing
appointments in the competitive service, after considering recommendations from
the district court or courts to be served. Nothing contained herein shall be deemed to
authorize more than one Federal Public Defender within a single judicial district.
The Federal Public Defender shall be appointed for a term of four years, unless
sooner removed by the court of appeals of the circuit for incompetency, misconduct in
office, or neglect of duty. Upon the expiration of his term, a Federal Public Defender
may, by a majority vote of the judges of the court of appeals, continue to perform the
duties of his office until his successor is appointed, or until one year after the
expiration of such Defender’s term, whichever is earlier. The compensation of the
Federal Public Defender shall be fixed by the court of appeals of the circuit at a rate
not to exceed the compensation received by the United States attorney for the district
where representation is furnished or, if two districts or parts of districts are involved,
the compensation of the higher paid United States attorney of the districts. The
Federal Public Defender may appoint, without regard to the provisions of title 5
governing appointments in the competitive service, full-time attorneys in such
USA v Verkler 20-30161

number as may be approved by the court of appeals of the circuit and other personnel
in such number as may be approved by the Director of the Administrative Office of
the United States Courts. Compensation paid to such attorneys and other personnel
of the organization shall be fixed by the Federal Public Defender at a rate not to
exceed that paid to attorneys and other personnel of similar qualifications and
experience in the Office of the United States attorney in the district where
representation is furnished or, if two districts or parts of districts are involved, the
higher compensation paid to persons of similar qualifications and experience in the
districts. Neither the Federal Public Defender nor any attorney so appointed by him
may engage in the private practice of law. Each organization shall submit to the
Director of the Administrative Office of the United States Courts, at the time and in
the form prescribed by him, reports of its activities and financial position and its
proposed budget. The Director of the Administrative Office shall submit, in
accordance with section 605 of title 28. a budget for each organization for each fiscal
year and shall out of the appropriations therefor make payments to and on behalf of
each organization. Payments under this subparagraph to an organization shall be in
lieu of payments under subsection (d) or (e).
(B) Community Defender Organization.—A Community Defender Organization shall
be a non-profit defense counsel service established and administered by any group
authorized by the plan to provide representation. The organization shall be eligible to
furnish attorneys and receive payments under this section if its bylaws are set forth
in the plan of the district or districts in which it will serve. Each organization shall
submit to the Judicial Conference of the United States an annual report setting forth
its activities and financial position and the anticipated caseload and expenses for the
next fiscal year. Upon application an organization may, to the extent approved by the
Judicial Conference of the United States^
(i) receive an initial grant for expenses necessary to establish the
organization; and
(ii) in lieu of payments under subsection (d) or (e), receive periodic sustaining
grants to provide representation and other expenses pursuant to this section.
(3) Malpractice and Negligence Suits.—
The Director of the Administrative Office of the United States Courts shall, to the extent
the Director considers appropriate, provide representation for and hold harmless, or
provide liability insurance for, any person who is an officer or employee of a Federal
Public Defender Organization established under this subsection, or a Community
Defender Organization established under this subsection which is receiving periodic
sustaining grants, for money damages for injury, loss of liberty, loss of property, or
personal injury or death arising from malpractice or negligence of any such officer or
employee in furnishing representational services under this section while acting within
the scope of that person’s office or employment.
(h)RULES AND REPORTS.—
Each district court and court of appeals of a circuit shall submit a report on the
appointment of counsel within its jurisdiction to the Administrative Office of the United
USA v Verkler 20-30161

States Courts in such form and at such times as the Judicial Conference of the United
States may specify. The Judicial Conference of the United States may, from time to time,
issue rules and regulations governing the operation of plans formulated under this section.
(i)Appropriations —
There are authorized to be appropriated to the United States courts, out of any money in
the Treasury not otherwise appropriated, sums necessary to carry out the provisions of this
section, including funds for the continuing education and training of persons providing
representational services under this section. When so specified in appropriation acts, such
appropriations shall remain available until expended. Payments from such appropriations
shall be made under the supervision of the Director of the Administrative Office of the
United States Courts.
(j)Districts Included —
As used in this section, the term “district court” means each district court of the United
States created by chapter 5 of title 28, the District Court of the Virgin Islands, the District
Court for the Northern Mariana Islands, and the District Court of Guam.
(k)APPLICABILITY IN THE DISTRICT OF COLUMBIA —

The provisions of this section shall apply in the United States District Court for the District
of Columbia and the United States Court of Appeals for the District of Columbia Circuit.
The provisions of this section shall not apply to the Superior Court of the District of
Columbia and the District of Columbia Court of Appeals.”

Fed. Rule of Crim. Proc. 44 states, “Rule 44. Right to and Appointment of Counsel
(a) Right to Appointed Counsel. A defendant who is unable to obtain counsel is entitled
to have counsel appointed to represent the defendant at every stage of the proceeding from
initial appearance through appeal, unless the defendant waives this right.
(b) Appointment Procedure. Federal law and local court rules govern the procedure for
implementing the right to counsel.
(c) Inquiry Into Joint Representation.
(1) Joint Representation. Joint representation occurs when:
(A) two or more defendants have been charged jointly under Rule 8(b) or have been
joined for trial under Rule 13; and
(B) the defendants are represented by the same counsel, or counsel who are
associated in law practice.
(2) Court's Responsibilities in Cases ofJoint Representation. The court must promptly
inquire about the propriety of joint representation and must personally advise each
defendant of the right to the effective assistance of counsel, including separate
representation. Unless there is good cause to believe that no conflict of interest is likely
USA v Verkler 20-30161

to arise, the court must take appropriate measures to protect each defendant's right to
counsel.

Fed. Rule of Crim. Proc. 11 states, “Rule 11. Pleas
(a) Entering a Plea.
(1) In General. A defendant may plead not guilty, guilty, or (with the court's consent)
nolo contendere.
(2) Conditional Plea. With the consent of the court and the government, a defendant
may enter a conditional plea of guilty or nolo contendere, reserving in writing the right to
have an appellate court review an adverse determination of a specified pretrial motion. A
defendant who prevails on appeal may then withdraw the plea.
(3) Nolo Contendere Plea. Before accepting a plea of nolo contendere, the court must
consider the parties’ views and the public interest in the effective administration of
justice.
(4) Failure to Enter a Plea. If a defendant refuses to enter a plea or if a defendant
organization fails to appear, the court must enter a plea of not guilty.
<b) Considering and Accepting a Guilty or Nolo Contendere Plea.
(1) Advising and Questioning the Defendant. Before the court accepts a plea of guilty
or nolo contendere, the defendant may be placed under oath, and the court must address
the defendant personally in open court. During this address, the court must inform the
defendant of, and determine that the defendant understands, the following:
(A) the government's right, in a prosecution for perjury or false statement, to use
against the defendant any statement that the defendant gives under oath;
(B) the right to plead not guilty, or having already so pleaded, to persist in that plea;
(C) the right to a jury trial;
(D) the right to be represented by counsel—and if necessary have the court appoint
counsel—at trial and at every other stage of the proceeding;
(E) the right at trial to confront and cross-examine adverse witnesses, to be
protected from compelled self-incrimination, to testify and present evidence, and to
compel the attendance of witnesses!
(F) the defendant's waiver of these trial rights if the court accepts a plea of guilty or
nolo contendere;
(G) the nature of each charge to which the defendant is pleading;
(H) any maximum possible penalty, including imprisonment, fine, and term of
supervised release!
(I) any mandatory minimum penalty!
(J) any applicable forfeiture;
USA v Verkler 20-30161

GO the court's authority to order restitution;
(L) the court's obligation to impose a special assessment;
(M) in determining a sentence, the court's obligation to calculate the applicable
sentencing-guideline range and to consider that range, possible departures under the
Sentencing Guidelines, and other sentencing factors under 18 U.S.C. $3553(a);
(N) the terms of any plea-agreement provision waiving the right to appeal or to
collaterally attack the sentence! and
(O) that, if convicted, a defendant who is not a United States citizen may be removed
from the United States, denied citizenship, and denied admission to the United States
in the future.
(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of guilty or nolo
contendere, the court must address the defendant personally in open court and determine
that the plea is voluntary and did not result from force, threats, or promises (other than
promises in a plea agreement).
(3) Determining the Factual Basis for a Plea. Before entering judgment on a guilty
plea, the court must determine that there is a factual basis for the plea.
(c) Plea Agreement Procedure.
(1) In General. An attorney for the government and the defendant's attorney, or the
defendant when proceeding pro se, may discuss and reach a plea agreement. The court
must not participate in these discussions. If the defendant pleads guilty or nolo
contendere to either a charged offense or a lesser or related offense, the plea agreement
may specify that an attorney for the government will:
(A) not bring, or will move to dismiss, other charges!
(B) recommend, or agree not to oppose the defendant's request, that a particular
sentence or sentencing range is appropriate or that a particular provision of the
Sentencing Guidelines, or policy statement, or sentencing factor does or does not apply
(such a recommendation or request does not bind the court); or
(C) agree that a specific sentence or sentencing range is the appropriate disposition
of the case, or that a particular provision of the Sentencing Guidelines, or policy
statement, or sentencing factor does or does not apply (such a recommendation or
request binds the court once the court accepts the plea agreement).
(2) Disclosing a Plea Agreement. The parties must disclose the plea agreement in open
court when the plea is offered, unless the court for good cause allows the parties to
disclose the plea agreement in camera.
(3) Judicial Consideration ofa Plea Agreement.
(A) To the extent the plea agreement is of the type specified in Rule
11(c)(1)(A) or (C), the court may accept the agreement, reject it, or defer a decision
until the court has reviewed the presentence report.

USA v Verkler 20-30161

(B) To the extent the plea agreement is of the type specified in Rule 11(c)(1)(B). the
court must advise the defendant that the defendant has no right to withdraw the plea
if the court does not follow the recommendation or request.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement, it must
inform the defendant that to the extent the plea agreement is of the type specified
in Rule 11(c)(1)(A) or (Cl, the agreed disposition will be included in the judgment.
(5) Rejecting a Plea Agreement. If the court rejects a plea agreement containing
provisions of the type specified in Rule 11(c)(1)(A) or (Cl, the court must do the following
on the record and in open court (or, for good cause, in camera):
(A) inform the parties that the court rejects the plea agreement;
(B) advise the defendant personally that the court is not required to follow the plea
agreement and give the defendant an opportunity to withdraw the plea; and
(C) advise the defendant personally that if the plea is not withdrawn, the court may
dispose of the case less favorably toward the defendant than the plea agreement
contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may withdraw a plea
of guilty or nolo contendere’•
(1) before the court accepts the plea, for any reason or no reason! or
(2) after the court accepts the plea, but before it imposes sentence ifi
(A) the court rejects a plea agreement under 11(c)(5); or
(B) the defendant can show a fair and just reason for requesting the withdrawal.
(e) Finality of a Guilty or Nolo Contendere Plea. After the court imposes sentence,
the defendant may not withdraw a plea of guilty or nolo contendere, and the plea may be
set aside only on direct appeal or collateral attack.
(0 ADMISSIBILITY OR INADMISSIBILITY OF A PLEA, PLEA DISCUSSIONS, AND RELATED
STATEMENTS. The admissibility or inadmissibility of a plea, a plea discussion, and any
related statement is governed by Federal Rule of Evidence 410.
(g) RECORDING THE PROCEEDINGS. The proceedings during which the defendant enters a
plea must be recorded by a court reporter or by a suitable recording device. If there is a
guilty plea or a nolo contendere plea, the record must include the inquiries and advice to
the defendant required under Rule 11(b) and (c).
(h) HARMLESS Error, a variance from the requirements of this rule is harmless error if it
does not affect substantial rights.

USA v Verkler 20-30161

DOUBLE JEOPARDY PROHIBITED and USA CANNOT SEIZE PROPERTY WITHOUT
JUST COMPENSATION AND DUE PROCESS
The Fifth Amendment (above) states,

nor shall any person be subject for the

same offence to be twice put in jeopardy ... nor be deprived of... property, without due
process of law; nor shall private property be taken for public use, without just
compensation.”
42 USC §2000h-l states,
Double jeopardy; specific crimes and criminal contempts. No person
should be put twice in jeopardy under the laws of the United States for
the same act or omission. For this reason, an acquittal or conviction in
a prosecution for a specific crime under the laws of the United States
shall bar a proceeding for criminal contempt, which is based upon the
same act or omission and which arises under the provisions of this Act;
and an acquittal or conviction in a proceeding for criminal contempt,
which arises under the provisions of this Act, shall bar a prosecution
for a specific crime under the laws of the United States based upon the
same act or omission.”

EXCESSIVE FINES PROHIBITED
The Eighth Amendment states, “AMENDMENT VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.”

THE RIGHT TO APPEAL and IMPARTIAL JUDGE
The Preamble to the US Constitution states, “
We the People of the United States, in Order to form a more perfect Union, establish
Justice, insure domestic Tranquility, provide for the common defence, promote the general
Welfare, and secure the Blessings of Liberty to ourselves and our Posterity, do ordain and
establish this Constitution for the United States of America.
USA v Verkter 20-30161

Appellant claims the right to appeal under Article 1 Section 8 which states, “Section 8
The Congress shall have Power To lay and collect Taxes, Duties, Imposts and Excises, to
pay the Debts and provide for the common Defence and general Welfare of the United
States! but all Duties, Imposts and Excises shall be uniform throughout the United States;
To borrow Money on the credit of the United States!
To regulate Commerce with foreign Nations, and among the several States, and with the
Indian Tribes!
To establish an uniform Rule of Naturalization, and uniform Laws on the subject of
Bankruptcies throughout the United States!
To coin Money, regulate the Value thereof, and of foreign Coin, and fix the Standard of
Weights and Measures!
To provide for the Punishment of counterfeiting the Securities and current Coin of the
United States!
To establish Post Offices and post Roads!
To promote the Progress of Science and useful Arts, by securing for limited Times to
Authors and Inventors the exclusive Right to their respective Writings and Discoveries!
To constitute Tribunals inferior to the supreme Court!
To define and punish Piracies and Felonies committed on the high Seas, and Offences
against the Law of Nations!
To declare War, grant Letters of Marque and Reprisal, and make Rules concerning
Captures on Land and Water!
To raise and support Armies, but no Appropriation of Money to that Use shall be for a
longer Term than two Years!
To provide and maintain a Navy!
To make Rules for the Government and Regulation of the land and naval Forces!
To provide for calling forth the Militia to execute the Laws of the Union, suppress
Insurrections and repel Invasions!

USA v Verkler 20-30161

To provide for organizing, arming, and disciplining, the Militia, and for governing such Part
of them as may be employed in the Service of the United States, reserving to the States
respectively, the Appointment of the Officers, and the Authority of training the Militia
according to the discipline prescribed by Congress;
To exercise exclusive Legislation in all Cases whatsoever, over such District (not exceeding
ten Miles square) as may, by Cession of particular States, and the Acceptance of Congress,
become the Seat of Government of the United States, and to exercise like Authority over all
Places purchased by the Consent of the Legislature of the State in which the Same shall be,
for the Erection of Forts, Magazines, Arsenals, dock-Yards, and other needful Buildings;And
To make all Laws which shall be necessary and proper for carrying into Execution the
foregoing Powers, and all other Powers vested by this Constitution in the Government of
the United States, or in any Department or Officer thereof.”

Article 3 Sections 1 with Section 2 states, “Section 1
The judicial Power of the United States, shall be vested in one supreme Court, and in such
inferior Courts as the Congress may from time to time ordain and establish. The Judges,
both of the supreme and inferior Courts, shall hold their Offices during good Behaviour,
and shall, at stated Times, receive for their Services, a Compensation, which shall not be
diminished during their Continuance in Office.
Section 2
The Judicial Power shall extend to all Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and Treaties made, or which shall be made,
under their Authority;—to all Cases affecting Ambassadors, other public Ministers and
Consuls;—to all Cases of admiralty and maritime Jurisdiction;—to Controversies to which
the United States shall be a Party;—to Controversies between two or more States;—
between a State andOitizens of another State;—between Citizens of different States,—
between Citizens of the same State claiming Lands under Grants of different States, and
between a State, or the Citizens thereof, and foreign States, Citizens or Subjects.
In all Cases affecting Ambassadors, other public Ministers and Consuls, and those in which
a State shall be a Party, the supreme Court shall have original Jurisdiction. In all the other
Cases before mentioned, the Supreme Court shall have appellate Jurisdiction, both as to
Law and Fact, with such Exceptions, and under such Regulations as the Congress shall
make.
The Trial of all Crimes, except in Cases of Impeachment, shall be by Jury! and such Trial
shall be held in the State where the said Crimes shall have been committed; but when not
committed within any State, the Trial shall be at such Place or Places as the Congress may
by Law have directed.”

USA v Verkler 20-30161

The Fifth Amendment states, “No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in actual service in time
of War or public danger; nor shall any person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.”

28 U.S. Code § 1292 states, “Interlocutory decisions
(a) Except as provided in subsections (c) and (d) of this section, the courts of appeals shall
have jurisdiction of appeals from:
(1) Interlocutory orders of the district courts of the United States, the United States
District Court for the District of the Canal Zone, the District Court of Guam, and the
District Court of the Virgin Islands, or of the judges thereof, granting, continuing,
modifying, refusing or dissolving injunctions, or refusing to dissolve or modify
injunctions, except where a direct review may be had in the Supreme Court;
(2) Interlocutory orders appointing receivers, or refusing orders to wind up receiverships or
to take steps to accomplish the purposes thereof, such as directing sales or other
disposals of property;
(3) Interlocutory decrees of such district courts or the judges thereof determining the rights
and liabilities of the parties to admiralty cases in which appeals from final decrees are
allowed.
(b) When a district judge, in making in a civil action an order not otherwise appealable
under this section, shall be of the opinion that such order involves a controlling question of
law as to which there is substantial ground for difference of opinion and that an immediate
appeal from the order may materially advance the ultimate termination of the litigation, he
shall so state in writing in such order. The Court of Appeals which would have jurisdiction
of an appeal of such action may thereupon, in its discretion, permit an appeal to be taken
from such order, if application is made to it within ten days after the entry of the order:
Provided, however, That application for an appeal hereunder shall not stay proceedings in
the district court unless the district judge or the Court of Appeals or a judge thereof shall so
order.
(c) The United States Court of Appeals for the Federal Circuit shall have exclusive
jurisdiction—
(1) of an appeal from an interlocutory order or decree described in subsection (a) or (b) of
this section in any case over which the court would have jurisdiction of an appeal under
section 1295 of this title; and
(2) of an appeal from a judgment in a civil action for patent infringement which would
otherwise be appealable to the United States Court of Appeals for the Federal Circuit
and is final except for an accounting.
(d)
USA v Verkler 20-30161

(1) When the chief judge of the Court of International Trade issues an order under the
provisions of section 256(b) of this title, or when any judge of the Court of International
Trade, in issuing any other interlocutory order, includes in the order a statement that a
controlling question of law is involved with respect to which there is a substantial
ground for difference of opinion and that an immediate appeal from that order may
materially advance the ultimate termination of the litigation, the United States Court of
Appeals for the Federal Circuit may, in its discretion, permit an appeal to be taken from
such order, if application is made to that Court within ten days after the entry of such
order.
(2) When the chief judge of the United States Court of Federal Claims issues an order
under section 798(b) of this title, or when any judge of the United States Court of
Federal Claims, in issuing an interlocutory order, includes in the order a statement that
a controlling question of law is involved with respect to which there is a substantial
ground for difference of opinion and that an immediate appeal from that order may
materially advance the ultimate termination of the litigation, the United States Court of
Appeals for the Federal Circuit may, in its discretion, permit an appeal to be taken from
such order, if application is made to that Court within ten days after the entry of such
order.
(3) Neither the application for nor the granting of an appeal under this subsection shall
stay proceedings in the Court of International Trade or in the Court of Federal Claims,
as the case may be, unless a stay is ordered by a judge of the Court of International
Trade or of the Court of Federal Claims or by the United States Court of Appeals for the
Federal Circuit or a judge of that court.
(4)
(A) The United States Court of Appeals for the Federal Circuit shall have exclusive
jurisdiction of an appeal from an interlocutory order of a district court of the United
States, the District Court of Guam, the District Court of the Virgin Islands, or the
District Court for the Northern Mariana Islands, granting or denying, in whole or in
part, a motion to transfer an action to the United States Court of Federal Claims
under section 1631 of this title.
(B) When a motion to transfer an action to the Court of Federal Claims is filed in a
district court, no further proceedings shall be taken in the district court until 60
days after the court has ruled upon the motion. If an appeal is taken from the
district court’s grant or denial of the motion, proceedings shall be further stayed
until the appeal has been decided by the Court of Appeals for the Federal Circuit.
The stay of proceedings in the district court shall not bar the granting of preliminary
or injunctive relief, where appropriate and where expedition is reasonably
necessary. However, during the period in which proceedings are stayed as provided
in this subparagraph, no transfer to the Court of Federal Claims pursuant to the
motion shall be carried out.
(e) The Supreme Court may prescribe rules, in accordance with section 2072 of this title, to
provide for an appeal of an interlocutory decision to the courts of appeals that is not
otherwise provided for under subsection (a), (b), (c), or (d).

Federal Rule of Appellate Procedure 3 states, “Rule 3. Appeal as of Right—How
Taken
(a) Filing the Notice of Appeal.
USA v Verkler 20-30161

(1) An appeal permitted by law as of right from a district court to a court of appeals
may be taken only by filing a notice of appeal with the district clerk within the time
allowed by Rule 4. At the time of filing, the appellant must furnish the clerk with enough
copies of the notice to enable the clerk to comply with Rule 3(d).
(2) An appellant's failure to take any step other than the timely filing of a notice of
appeal does not affect the validity of the appeal, but is ground only for the court of
appeals to act as it considers appropriate, including dismissing the appeal.
(3) An appeal from a judgment by a magistrate judge in a civil case is taken in the
same way as an appeal from any other district court judgment.
(4) An appeal by permission under 28 U.S.C. § 1292(b) or an appeal in a bankruptcy
case may be taken only in the manner prescribed by Rules 5 and 6, respectively.

(b) Joint or Consolidated Appeals.
(1) When two or more parties are entitled to appeal from a district-court judgment or
order, and their interests make joinder practicable, they may file a joint notice of appeal.
They may then proceed on appeal as a single appellant.
(2) When the parties have filed separate timely notices of appeal, the appeals may be
joined or consolidated by the court of appeals.
(c) Contents of the Notice of Appeal.
(1) The notice of appeal must:
(A) specify the party or parties taking the appeal by naming each one in the caption
or body of the notice, but an attorney representing more than one party may describe
those parties with such terms as “all plaintiffs,” “the defendants,” “the plaintiffs A, B,
et al.,” or “all defendants except X”>'
(B) designate the judgment, order, or part thereof being appealed)' and
(C) name the court to which the appeal is taken.
(2) A pro se notice of appeal is considered filed on behalf of the signer and the signer's
spouse and minor children (if they are parties), unless the notice clearly indicates
otherwise.
(3) In a class action, whether or not the class has been certified, the notice of appeal is
sufficient if it names one person qualified to bring the appeal as representative of the
class.
(4) An appeal must not be dismissed for informality of form or title of the notice of
appeal, or for failure to name a party whose intent to appeal is otherwise clear from the
notice.
(5) Form 1 in the Appendix of Forms is a suggested form of a notice of appeal.
(d) SERVING THE NOTICE OF APPEAL.
(1) The district clerk must serve notice of the filing of a notice of appeal by sending a
copy to each party's counsel of record-excluding the appellant's—or, if a party is
proceeding pro se, to the party's last known address. When a defendant in a criminal case
USA v Verkler 20-30161

appeals, the clerk must also serve a copy of the notice of appeal on the defendant. The
clerk must promptly send a copy of the notice of appeal and of the docket entries—and
any later docket entries—to the clerk of the court of appeals named in the notice. The
district clerk must note, on each copy, the date when the notice of appeal was filed.
(2) If an inmate confined in an institution files a notice of appeal in the manner
provided by Rule 4(c). the district clerk must also note the date when the clerk docketed
the notice.
(3) The district clerk's failure to serve notice does not affect the validity of the appeal.
The clerk must note on the docket the names of the parties to whom the clerk sends
copies, with the date of sending. Service is sufficient despite the death of a party or the
party's counsel.
(e) PAYMENT OF Fees. Upon fifing a notice of appeal, the appellant must pay the district
clerk all required fees. The district clerk receives the appellate docket fee on behalf of the
court of appeals.”

Fed. Rule of Crim. Proc. 44(a) (above) states, “A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at every stage of
the proceeding from initial appearance through appeal,”

28 USC sec 455(a)(b)(l)(5)(ii)(iii)(iv)(c)(e) states, “
28 U.S. Code § 455 ■ Disqualification of justice, judge, or magistrate judge
(a) Any justice, judge, or magistrate judge of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal knowledge
of disputed evidentiary facts concerning the proceeding*'
(2) Where in private practice he served as lawyer in the matter in controversy, or a
lawyer with whom he previously practiced law served during such association as a
lawyer concerning the matter, or the judge or such lawyer has been a material witness
concerning it;
(3) Where he has served in governmental employment and in such capacity participated
as counsel, adviser or material witness concerning the proceeding or expressed an
opinion concerning the merits of the particular case in controversy?
(4) He knows that he, individually or as a fiduciary, or his spouse or minor child residing
in his household, has a financial interest in the subject matter in controversy or in a

USA v Verkler 20-30161

party to the proceeding, or any other interest that could be substantially affected by the
outcome of the proceeding,'
(5) He or his spouse, or a person within the third degree of relationship to either of them,
or the spouse of such a person:
(i) Is a party to the proceeding, or an officer, director, or trustee of a party,'
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that could be substantially affected by
the outcome of the proceeding;
(iv) Is to the judge’s knowledge likely to be a material witness in the proceeding.
(c) A judge should inform himself about his personal and fiduciary financial interests, and
make a reasonable effort to inform himself about the personal financial interests of his
spouse and minor children residing in his household.
(d) For the purposes of this section the following words or phrases shall have the meaning
indicated-'
(1) “proceeding” includes pretrial, trial, appellate review, or other stages of litigation;
(2) the degree of relationship is calculated according to the civil law system;
(3) “fiduciary” includes such relationships as executor, administrator, trustee, and
guardian!
(4) “financial interest” means ownership of a legal or equitable interest, however small,
or a relationship as director, adviser, or other active participant in the affairs of a party,
except that:
(i) Ownership in a mutual or common investment fund that holds securities is not a
“financial interest” in such securities unless the judge participates in the
management of the fund;
(ii) An office in an educational, religious, charitable, fraternal, or civic organization is
not a “financial interest” in securities held by the organization;
(iii) The proprietary interest of a policyholder in a mutual insurance company, of a
depositor in a mutual savings association, or a similar proprietary interest, is a
“financial interest” in the organization only if the outcome of the proceeding could
substantially affect the value of the interest!
(iv) Ownership of government securities is a “financial interest” in the issuer only if
the outcome of the proceeding could substantially affect the value of the securities.
(e) No justice, judge, or magistrate judge shall accept from the parties to the proceeding a
waiver of any ground for disqualification enumerated in subsection (b). Where the ground
for disqualification arises only under subsection (a), waiver may be accepted provided it is
preceded by a full disclosure on the record of the basis for disqualification.
USA v Verkler 20-30161

(£) Notwithstanding the preceding provisions of this section, if any justice, judge, magistrate
judge, or bankruptcy judge to whom a matter has been assigned would be disqualified, after
substantial judicial time has been devoted to the matter, because of the appearance or
discovery, after the matter was assigned to him or her, that he or she individually or as a
fiduciary, or his or her spouse or minor child residing in his or her household, has a
financial interest in a party (other than an interest that could be substantially affected by
the outcome), disqualification is not required if the justice, judge, magistrate judge,
bankruptcy judge, spouse or minor child, as the case may be, divests himself or herself of
the interest that provides the grounds for the disqualification.

DOUBLE JEOPARDY PROHIBITED and USA CANNOT SEIZE PROPERTY WITHOUT
JUST COMPENSATION AND DUE PROCESS
The Fifth Amendment (above) states,

nor shall any person be subject for the

same offence to be twice put in jeopardy ... nor be deprived of... property, without due
process of law.' nor shall private property be taken for public use, without just
compensation.”
42 USC §2000h-l states,
Double jeopardy; specific crimes and criminal contempts. No person
should be put twice in jeopardy under the laws of the United States for
the same act or omission. For this reason, an acquittal or conviction in
a prosecution for a specific crime under the laws of the United States
shall bar a proceeding for criminal contempt, which is based upon the
same act or omission and which arises under the provisions of this Act;
and an acquittal or conviction in a proceeding for criminal contempt,
which arises under the provisions of this Act, shall bar a prosecution
for a specific crime under the laws of the United States based upon the
same act or omission.”

EXCESSIVE FINES PROHIBITED
The Eighth Amendment states, “AMENDMENT VIII

USA vVerkler 20-30161

Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.”

HEARING REQUIRED
Article 3 Section 2 (above) states, “The Trial of all Grimes... shall be by Jury...”
The Fifth Amendment (above) states, “No person shall be held to answer for a ...
crime, nor be deprived of... property, without due process of law.”
18 U.S. Code § 3006A (d)(4)(B)(ii)(IV) (above) states adequate representation of
defendants for any person financially unable to obtain adequate representation for hearings
is a right.
Fed. R. Crim. P. 5 (a)(1)(A) (above) states, “the United States must take the
defendant without unnecessary delay before a magistrate judge...” (d)(1)(D) states,
“Procedure in a Felony Case. Advice. If the defendant is charged with a felony, the judge
must inform the defendant of the following: any right to a preliminary hearing...” Fed
Rule of Crim Proc 11 (b) (above) states, “CONSIDERING AND ACCEPTING A GUILTY OR NOLO
CONTENDERE Plea. (1) Advising and Questioning the Defendant. Before the court accepts a
plea of guilty or nolo contendere, the defendant may be placed under oath, and the court
must address the defendant personally in open court. During this address, the court must
inform the defendant of, and determine that the defendant understands, the following:”
Fed. Rule of Crim. Proc. 44(a) (above) states, “A defendant who is unable to obtain counsel
is entitled to have counsel appointed to represent the defendant at every stage of the
proceeding from initial appearance through appeal.”

USA v Verkler 20-30161

BREACH OF CONTRACT
28 USC 3308 states, "Except as provided in this subchapter, the principles of law
and equity, including the law merchant and the law relating to principles and agent,
estoppel! laches, fraud, misrepresentation, duress, coercion, mistake, insolvency, or other
validating or invalidating clause shall apply to actions and proceedings under this
subchapter."
The Uniform Commercial Code states, “§ 2*601. Buyer's Rights on Improper
Delivery.
Subject to the provisions of this Article on breach in installment contracts (Section 2*612)
and unless otherwise agreed under the sections on contractual limitations of remedy
(Sections 2*718 and 2*719). if the goods or the tender of delivery fail in any respect to
conform to the contract, the buyer may
•
•
•

(a) reject the whole; or
(b) accept the whole; or
(c) accept any commercial unit or units and reject the rest.

PROPER LEGAL STANDARD
Federal Rules of Criminal Procedure 1 states, “Rule 1. Scope; Definitions
(a) Scope.
(1) In General. These rules govern the procedure in all criminal proceedings in the
United States district courts, the United States courts of appeals, and the Supreme Court
of the United States.
(2) State or Local Judicial Officer. When a rule so states, it applies to a proceeding
before a state or local judicial officer.
(3) Territorial Courts. These rules also govern the procedure in all criminal
proceedings in the following courts;
USA v Verkler 20-30161

(A) the district court of Guam!
(B) the district court for the Northern Mariana Islands, except as otherwise provided
by law? and
(C) the district court of the Virgin Islands, except that the prosecution of offenses in
that court must be by indictment or information as otherwise provided by law.
(4) Removed Proceedings. Although these rules govern all proceedings after removal
from a state court, state law governs a dismissal by the prosecution.
(5) Excluded Proceedings. Proceedings not governed by these rules include:
(A) the extradition and rendition of a fugitive!
(B) a civil property forfeiture for violating a federal statute!
(C) the collection of a fine or penalty!
(D) a proceeding under a statute governing juvenile delinquency to the extent the
procedure is inconsistent with the statute, unless Rule 20(d) provides otherwise!
(E) a dispute between seamen under 22 U.S.C. §§256-258; and
(F) a proceeding against a witness in a foreign country under 28 U.S.C. §1784.
(b) DEFINITIONS. The following definitions apply to these rules:
(1) “Attorney for the government” means:
(A) the Attorney General or an authorized assistant;
(B) a United States attorney or an authorized assistant;
(C) when applicable to cases arising under Guam law, the Guam Attorney General
or other person whom Guam law authorizes to act in the matter! and
(D) any other attorney authorized by law to conduct proceedings under these rules
as a prosecutor.
(2) “Court” means a federal judge performing functions authorized by law.
(3) “Federal judge” means:
(A) a justice or judge of the United States as these terms are defined in 28 U.S.C.
§451!
(B) a magistrate judge! and
(C) a judge confirmed by the United States Senate and empowered by statute in any
commonwealth, territory, or possession to perform a function to which a particular rule
relates.
(4) “Judge” means a federal judge or a state or local judicial officer.
(5) “Magistrate judge” means a United States magistrate judge as defined in 28 U.S.C.
§§631-639.
(6) “Oath” includes an affirmation.
USA v Verkler 20-30161

(7) “Organization” is defined in 18 U.S.C. §18.
(8) “Petty offense” is defined in 18 U.S.C. §19.
(9) “State” includes the District of Columbia, and any commonwealth, territory, or
possession of the United States.
(10) “State or local judicial officer” means:
(A) a state or local officer authorized to act under 18 U.S.C. §3041; and
(B) a judicial officer empowered by statute in the District of Columbia or in any
commonwealth, territory, or possession to perform a function to which a particular rule
relates.
(11) "Telephone" means any technology for transmitting five electronic voice
communication.
(12) “Victim” means a “crime victim” as defined in 18 U.S.C. §3771 (e).
(c) Authority of a Justice or Judge of the United States. When these rules authorize
a magistrate judge to act, any other federal judge may also act.”

Federal Rule of Criminal Procedure 2 states, “Rule 2. Interpretation
These rules are to be interpreted to provide for the just determination of every criminal
proceeding, to secure simplicity in procedure and fairness in administration, and to
eliminate unjustifiable expense and delay.”

15 U.S. Code § 1692h.Multiple debts says.
If any consumer owes multiple debts and makes any single payment to
any debt collector with respect to such debts, such debt collector may not
apply such payment to any debt which is disputed by the consumer and,
where applicable, shall apply such payment in accordance with
the consumer’s directions.

CRUEL AND UNUSUAL PUNISHMENT PROHIBITED

The Eighth Amendment states, “Amendment VIII Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and unusual punishments inflicted.”

USA vVerkler 20-30161

RIGHT TO THE PROTECTION OF THE CONSTITUTION AND THE LAWS

18 U.S. Code § 4 - Misprision of felony states'
Whoever, having knowledge of the actual commission of a felony cognizable
by a court of the United States, conceals and does not as soon as possible
make known the same to some judge or other person in civil or military
authority under the United States, shall be fined under this title or
imprisoned not more than three years, or both.

18 U.S. Code § 643 - Accounting generally for public money
Whoever, being an officer, employee or agent of the United States or of any
department or agency thereof, having received public money which he is not
authorized to retain as salary, pay, or emolument, fails to render his accounts
for the same as provided by law is guilty of embezzlement, and shall be fined
under this title or in a sum equal to the amount of the money embezzled,
whichever is greater, or imprisoned not more than ten years,

18 U.S. Code § 645 - Court officers generally
Whoever, being a United States marshal, clerk, receiver, referee, trustee,
or other officer of a United States court, or any deputy, assistant, or employee
of any such officer, retains or converts to his own use or to the use of another
or after demand by the party entitled thereto, unlawfully retains any money
coming into his hands by virtue of his official relation, position or
employment, is guilty of embezzlement and shall, where the offense is not
otherwise punishable by enactment of Congress, be fined under this title or
not more than double the value of the money so embezzled, whichever is
greater, or imprisoned not more than ten years, or both; but if the amount
embezzled does not exceed $1,000, he shall be fined under this title or
imprisoned not more than one year, or both.
It shall not be a defense that the accused person had any interest in such
moneys or fund.

18 U.S. Code § 646 * Court officers depositing registry moneys
Whoever, being a clerk or other officer of a court of the United States, fails
to deposit promptly any money belonging in the registry of the court, or paid
into court or received by the officers thereof, with the Treasurer or a
designated depositary of the United States, in the name and to the credit of
such court, or retains or converts to his own use or to the use of another any
such money, is guilty of embezzlement and shall be fined under this title or
USA v Verkler 20-30161

not more than the amount embezzled, whichever is greater, or imprisoned not
more than ten years, or both; but if the amount embezzled does not exceed
$1,000, he shall be fined under this title or imprisoned not more than one
year, or both.
This section shall not prevent the delivery of any such money upon
security, according to agreement of parties, under the direction of the court.

18 U.S. Code § 648 ■ Custodians, generally, misusing public funds
Whoever, being an officer or other person charged by any Act
of Congress with the safe-keeping of the public moneys, loans, uses, or
converts to his own use, or deposits in any bank, including any branch or
agency of a foreign bank (as such terms are defined in paragraphs (1) and (3)
of section 1(b) of the International Ranking Act of 1978). or exchanges for
other funds, except as specially allowed by law, any portion of the public
moneys intrusted to him for safe-keeping, is guilty of embezzlement of the
money so loaned, used, converted, deposited, or exchanged, and shall be fined
under this title or in a sum equal to the amount of money so embezzled,
whichever is greater, or imprisoned not more than ten years, or both; but if
the amount embezzled does not exceed $1,000, he shall be fined under this
title or imprisoned not more than one year, or both.

28 U.S. Code § 545 - Residence states:
(a) Each United States attorney shall reside in the district for which he is
appointed,... Each assistant United States attorney shall reside in the
district for which he or she is appointed or within 25 miles thereof....
Pursuant to an order from the Attorney General or his designee, a United
States attorney or an assistant United States attorney may be assigned dual
or additional responsibilities that exempt such officer from the residency
requirement in this subsection for a specific period as established by the
order and subject to renewal.

18 U.S. Code § 3142 - Release or detention of a defendant pending trial
(a)lN GENERAL.—Upon the appearance before a judicial officer of a person charged with
an offense, the judicial officer shall issue an order that, pending trial, the person be—
(1) released on personal recognizance or upon execution of an unsecured appearance bond,
under subsection (b) of this section;
(2) released on a condition or combination of conditions under subsection (c) of this section;

USA v Verkler 20-30161

(3) temporarily detained to permit revocation of conditional release, deportation, or
exclusion under subsection (d) of this section; or
(4) detained under subsection (e) of this section.
<b)RELEASE ON PERSONAL RECOGNIZANCE OR UNSECURED APPEARANCE BOND —
The judicial officer shall order the pretrial release of the person on personal recognizance,
or upon execution of an unsecured appearance bond in an amount specified by the court,
subject to the condition that the person not commit a Federal. State, or local crime during
the period of release and subject to the condition that the person cooperate in the collection
of a DNA sample from the person if the collection of such a sample is authorized pursuant
to section 3 of the DNA Analysis Backlog Elimination Act of 20QQ (42 U.S.C.
14135a),Ill unless the judicial officer determines that such release will not reasonably
assure the appearance of the person as required or will endanger the safety of any other
person or the community.
(c)Release on Conditions.—
(Dlf the judicial officer determines that the release described in subsection (b) of this
section will not reasonably assure the appearance of the person as required or will
endanger the safety of any other person or the community, such judicial officer shall order
the pretrial release of the person—
(A) subject to the condition that the person not commit a Federal, State, or local crime
during the period of release and subject to the condition that the person cooperate in the
collection of a DNA sample from the person if the collection of such a sample is authorized
pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C.
14135a);1 and
(B) subject to the least restrictive further condition, or combination of conditions, that
such judicial officer determines will reasonably assure the appearance of the person as
required and the safety of any other person and the community, which may include the
condition that the person—
(i) remain in the custody of a designated person, who agrees to assume supervision and to
report any violation of a release condition to the court, if the designated person is able
reasonably to assure the judicial officer that the person will appear as required and will not
pose a danger to the safety of any other person or the community;
(ii) maintain employment, or, if unemployed, actively seek employment;
(iii) maintain or commence an educational program;
(iv) abide by specified restrictions on personal associations, place of abode, or travel;
(v) avoid all contact with an alleged victim of the crime and with a potential witness who
may testify concerning the offense;
(vi) report on a regular basis to a designated law enforcement agency, pretrial services
agency, or other agency,'
USA v Verkler 20-30161

(vii) comply with a specified curfew;
(viii) refrain from possessing a firearm, destructive device, or other dangerous weapon!
(ix) refrain from excessive use of alcohol, or any use of a narcotic drug or other controlled
substance, ns defined in section 102 of the Controlled Substances Act (21 U.S. C. 802),
without a prescription by a licensed medical practitioner;
(x) undergo available medical, psychological, or psychiatric treatment, including treatment
for drug or alcohol dependency, and remain in a specified institution if required for that
purpose;
(xi) execute an agreement to forfeit upon failing to appear as required, property of a
sufficient unencumbered value, including money, as is reasonably necessary to assure the
appearance of the person as required, and shall provide the court with proof of ownership
and the value of the property along with information regarding existing encumbrances as
the judicial office may require;
(xii) execute a bail bond with solvent sureties; who will execute an agreement to forfeit in
such amount as is reasonably necessary to assure appearance of the person as required and
shall provide the court with information regarding the value of the assets and liabilities of
the surety if other than an approved surety and the nature and extent of encumbrances
against the surety’s property; such surety shall have a net worth which shall have sufficient
unencumbered value to pay the amount of the bail bond!
(xifi) return to custody for specified hours following release for employment, schooling, or
other limited purposes; and
(xiv) satisfy any other condition that is reasonably necessary to assure the appearance of
the person as required and to assure the safety of any other person and the community.
In any case that involves a minor victim under
section 1201. 1591. 2241. 2242. 2244(a)(1). 2245. 2251. 2251A. 2252(a)(1). 2252(a)(2). 2252(a
)(3). 2252A(a)(l). 2252A(a)(2), 2252Ala)(3). 2252A(a)(4). 2260. 2421. 2422. 2423. or 2425 of
this title, or a failure to register offense under section 2250 of this title, any release order
shall contain, at a minimum, a condition of electronic monitoring and each of the conditions
specified at subparagraphs (iv), (v), (vi), (vii), and (viii).
(2) The judicial officer may not impose a financial condition that results in the pretrial
detention of the person.
(3) The judicial officer may at any time amend the order to impose additional or different
conditions of release.

18 U.S. Code § 3164 - Persons detained or designated as being of high risk
(a) The trial or other disposition of cases involving—
(l) a detained person who is being held in detention solely because he is awaiting trial, and
USA vVerkler 20-30161

(2) a released person who is awaiting trial and has been designated by the attorney for the
Government as being of high risk,
shall be accorded priority.
(b) The trial of any person described in subsection (a)(1) or (a)(2) of this section shall
commence not later than ninety days following the beginning of such continuous detention
or designation of high risk by the attorney for the Government. The periods of delay
enumerated in section 3161(h) are excluded in computing the time limitation specified in
this section.
(c) Failure to commence trial of a detainee as specified in subsection (b), through no fault of
the accused or his counsel, or failure to commence trial of a designated releasee as specified
in subsection (b), through no fault of the attorney for the Government, shall result in the
automatic review by the court of the conditions of release. No detainee, as defined in
subsection (a), shall be held in custody pending trial after the expiration of such ninety-day
period required for the commencement of his trial. A designated releasee, as defined in
subsection (a), who is found by the court to have intentionally delayed the trial of his case
shall be subject to an order of the court modifying his nonfinancial conditions of release
under this title to insure that he shall appear at trial as required.

NO ONE IN THE FEDERAL GOVERNMENT DOES NOT HAVE AUTHORITY TO
COMMIT A CRIME, A TORT OR TO LIE AGAINST ANY AMERICAN

Article I Section 2 states, “... The House of Representatives ... shall have the sole
Power of Impeachment.”

Article I Section 3 states, "... The Senate shall have the sole Power to
try all Impeachments... the Party convicted shall nevertheless be hable and
subject to Indictment, Trial, Judgment and Punishment, according to Law.”
That means Congress can remove any member from the government for
committing crimes against Americans and they can still be prosecuted or
sued.

Article I Section 5 states, "... Each House may punish its Members for disorderly
Behaviour, and,... expel a Member.”

USA v Verkler 20-30161

Article II Section 4 states, “The President, Vice President and all civil Officers of the
United States, shall be removed from Office on Impeachment for, and Conviction of,
Treason, Bribery, or other high Crimes and Misdemeanors.”
Article III Section 1 states, “...The Judges, both of the supreme and inferior Courts,
shall hold their Offices during good Behaviour,” That means they may not continue in their
office if they do not maintain good behavior.
The Third Amendment states, “No Soldier shall, in time of peace be quartered in any
house, without the consent of the Owner, nor in time of war, but in a manner to be
prescribed by law.”
The Fourth Amendment (above) prohibits some crimes, torts and lies.

The Fifth Amendment (above) prohibits some crimes, torts and lies.

The Sixth Amendment states, “In all criminal prosecutions, the
accused shall enjoy the right to a speedy and public trial, by an impartial jury
of the State and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.” It says the ability of
the government to commit crimes, torts or he against Americans under the
guise of fighting crime.

The Eighth Amendment (above) prohibits some crimes.

The Ninth Amendment states, “The enumeration in the Constitution, of certain
rights, shall not be construed to deny or disparage others retained by the people.” This
provides protection from government crimes, torts or lies from the government that have
been thought of or fisted.

USA v Verkler 20-30161

The Tenth Amendment states, “10th Amendment
The powers not delegated to the United States by the Constitution, nor prohibited by it to
the States, are reserved to the States respectively, or to the people.”
The 14th Amendment Section 1 and 3 state, “All persons born or
naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States! nor shall any State deprive any
person of life, liberty, or property, without due process of law,' nor deny to any
person within its jurisdiction the equal protection of the laws.... No person
shall be a Senator or Representative in Congress, or elector of President and
Vice-President, or hold any office, civil or military, under the United States, or
under any State, who, having previously taken an oath, as a member of
Congress, or as an officer of the United States, or as a member of any State
legislature, or as an executive or judicial officer of any State, to support the
Constitution of the United States, shall have engaged in insurrection or
rebellion against the same, or given aid or comfort to the enemies thereof. But
Congress may by a vote of two-thirds of each House, remove such disability.”
18 U.S. Code § 211 - Acceptance or solicitation to obtain appointive
public office
Whoever solicits or receives, either as a political contribution, or for
personal emolument, any money or thing of value, in consideration of the
promise of support or use of influence in obtaining for any person any
appointive office or place under the United States, shall be fined under this
title or imprisoned not more than one year, or both.
Whoever solicits or receives any thing of value in consideration of aiding a
person to obtain employment under the United States either by referring his
name to an executive department or agency of the United States or by
requiring the payment of a fee because such person has secured such
employment shall be fined under this title, or imprisoned not more than one
year, or both. This section shall not apply to such services rendered by an
employment agency pursuant to the written request of an executive
department or agency of the United States.

18 U.S. Code § 241 - Conspiracy against rights
If two or more persons conspire to injure, oppress, threaten, or intimidate
any person in any State, Territory, Commonwealth, Possession, or District in
USA v Verkler 20-30161

the free exercise or enjoyment of any right or privilege secured to him by the
Constitution or laws of the United States, or because of his having so
exercised the same;...
They shall be fined under this title or imprisoned not more than ten years,
or both; and if death results from the acts committed in violation of this
section or if such acts include kidnapping or an attempt to kidnap,
aggravated sexual abuse or an attempt to commit aggravated sexual abuse,
or an attempt to kill, they shall be fined under this title or imprisoned for any
term of years or for life, or both, or may be sentenced to death.
18 USC 872 states, 18 U.S. Code § 872 states, “Extortion by officers or
employees of the United States
Whoever, being an officer, or employee of the United States or any
department or agency thereof, or representing himself to be or assuming to
act as such, under color or pretense of office or employment commits or
attempts an act of extortion, shall be fined under this title or imprisoned not
more than three years, or both; but if the amount so extorted or demanded
does not exceed $1,000, he shall be fined under this title or imprisoned not
more than one year, or both.”

18 USC 875 states, “18 U.S, Code § 875 - Interstate communications
(a) Whoever transmits in interstate or foreign commerce any communication
containing any demand or request for a ransom or reward for the release of
any kidnapped person, shall be fined under this title or imprisoned not more
than twenty years, or both.
(b) Whoever, with intent to extort from any person, firm, association, or
corporation, any money or other thing of value, transmits in interstate or
foreign commerce any communication containing any threat to kidnap any
person or any threat to injure the person of another, shall be fined under this
title or imprisoned not more than twenty years, or both.
(c) Whoever transmits in interstate or foreign commerce any communication
containing any threat to kidnap any person or any threat to injure the person
of another, shall be fined under this title or imprisoned not more than five
years, or both.
(d) Whoever, with intent to extort from any person, firm, association, or
corporation, any money or other thing of value, transmits in interstate or
foreign commerce any communication containing any threat to injure the
property or reputation of the addressee or of another or the reputation of a
deceased person or any threat to accuse the addressee or any other person of
a crime, shall be fined under this title or imprisoned not more than two years,
or both.
USA Werkler 20-30161

Whoever feloniously steals, takes away, alters, falsifies, or otherwise avoids any record,
writ, process, or other proceeding, in any court of the United States, whereby any judgment
is reversed, made void, or does not take effect;...”

18 USA 1512 which states,
Tampering with a witness, victim, or an informant
(a)(1) Whoever kills or attempts to kill another person, with intent to—
(A) prevent the attendance or testimony of any person in on
official proceeding:
(B) prevent the production of a record, document, or other object, in an
official proceeding; or
(C) prevent the communication by any person to a law enforcement
officer or judge of the United States of information relating to the
commission or possible commission of a Federal offense...
shall be punished as provided in paragraph (3).
(2) Whoever uses physical force or the threat of physical force against any
person, or attempts to do so, with intent to—
(A) influence, delay, or prevent the testimony of any person in an
official proceeding;
(B) cause or induce any person to­
ff) withhold testimony, or withhold a record, document, or
other object, from an official proceeding;
(ii) alter, destroy, mutilate, or conceal an object with intent to
impair the integrity of availability of the object for use in an
official proceeding;...
(C) hinder, delay, or prevent the communication to a law
enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal
offence or violation of conditions of probation, supervised release,
parole, or release pending judicial proceedings;
shall be punished as provided in paragraph (3).
(b) Whoever knowingly uses intimidation, threatens, or corruptly persuades
another person, or attempts to do so, or engages in misleading conduct
toward another person, with intent to—
(1) influence, delay, or prevent the testimony of any person in an official
proceeding;
(2) cause or induce any person to—
USA v Verkier 20-30161

(A) withhold testimony, or withhold a record, document, or other object,
from an official proceeding;
(3) hinder, delay, or prevent the communication to a law enforcement
officer or judge of the United States of information relating to the
commission or possible commission of a Federal offense or a violation of
conditions of probation [l] supervised release,,[l] parole, or release
pending judicial proceedings;
shall be fined under this title or imprisoned not more than 20 years, or both.
(c)Whoever corruptly—
(1) alters, destroys, mutilates, or conceals a record, document, or other
object, or attempts to do so, with the intent to impair the object’s integrity
or availability for use in an official proceeding! or
(2) otherwise obstructs, influences, or impedes any official proceeding, or
attempts to do so,
shall be fined under this title or imprisoned not more than 20 years, or both,
(g) In a prosecution for an offense under this section, no state of mind need be
proved with respect to the circumstance—
(1) that the official proceeding before a judge, court, magistrate judge,
grand jury, or government agency is before a judge or court of the United
States, a United States magistrate judge, a bankruptcy judge, a Federal
grand jury, or a Federal Government agency! or
(2) that the judge is a judge of the United States or that the law
enforcement officer is an officer or employee of the Federal Government or
a person authorized to act for or on behalf of the Federal Government or
serving the Federal Government as an adviser or consultant.
(k) Whoever conspires to commit any offense under this section shall be
subject to the same penalties as those prescribed for the offense the
commission of which was the object of the conspiracy.

Federal Rule of Criminal Procedure 49 says
Serving and Filing Papers
(b) Filing.
(5) Acceptance by the Clerk. The clerk must not refuse to file a paper solely
because it is not in the form prescribed by these rules or by a local rule or
practice.

USA v Verkler 20-30161

STATEMENT OF THE CASE
1) 8/29/00 complaint signed;
2) 8/30/00 amended complaint, Mr. Verkler arrested without a warrant violating the 4th
Amendment, FRCP 4, 41, Peter Avenia, public defender appointed;
3) 8/30/00 Motion to detain Mr. Verkler!
4) 9/1/00 Detention order in violation of the 8th Amendment, 18 USC 3142;
5) 9/25/00 Affidavit of Peter Avenia to extend indictment deadline!
6) USA withheld the 1999 an income tax refund of $4,957.8 for offset for restitution prior to
a conviction or sentence, violating the 5th Amendment;
7) 10/04/00 Substitution of counsel to Robert M Leen!
8) 10/25/00 Order continuing detention!
9) 11/14/00 jury instructions;
10) 11/17/00 Order by judge directing defendant to submit to submit to a psychiatric
examination;
11) 11/28/00 the judge violated 18 USC 3164 by not releasing Mr. Verkler upon 90 days in
custody without the beginning of trial;
11) 12/11/00 “GOVT’S LODGED ORDER: re- motion to continue trial by defendant George
E Verkler {30-1] (EC) (Entered: 12/11/2000)” has no docket number so it must be false;
12) 2/9/01 superseding Information, court opinion that defendant is competent, and plea
agreement, court documents acknowledged recovery of $198,636.10 and cars, computers
and other assets not yet priced;
USA v Verkler 20-30161

13) 4/23/01 sentencing memo for Defendant;
14) 4/25/01 sentencing memo by plaintiff;
15) 4/26/01 without allowing for a response by Defendant to plaintiff sentencing memo
(violating the 5th Amendment) Mr. Verkler sentenced to 15 months incarceration, 36
months supervised release with special conditions not in plea agreement, no fine, $400
special assessment, $202,923 restitution (less amounts recovered) (interest waived),
dismissing counts 1*4, preliminary order of forfeiture!
16) 4/30/21 “PROPOSED Statement of REASONS for dft George Verkler (EC) (Entered
04/30/2001)” has no docket number so it must be a false entry!
17) 6/19/01 claim by Arni Verkler!
18) In 2001 USA withheld George Verkler’s 2000 income tax refund of $176 for offset for
restitution.
19) In 2002 USA withheld George Verkler’s 2001 income tax refund of $1,131 for offset for
restitution;
20) 12/04/02 “LODGED ORDER re! motion to amd prelim order of forfeiture to incl suppl
list of forfeited property by USA [80-1] (CAR) (Entered: 12/05/2002)” has no docket number
so it must be a false entry!
21) In 2003 USA withheld George Verkler’s 2002 income tax refund of $1,813.72 for
restitution;
22) 10/16/03 Order directing forfeiture of property!
23) 11/20/03 dkt #92 was redated to 11/24/03 so it must be a falsification!

USA v Verkler 20-30161

24) 12/16/03 USA lowered its claims to have only collected $23, 637.88, which means at
least $183,076.74 was embezzled and stolen by USA or the court;
25) In 2004 USA withheld George Verkler’s 2003 income tax refund of $991 for offset for
restitution;
26) 11/18/04 the Utah State Tax Commission claimed the original amount was $8,652.00
and they only received $514.73 on 1/10/04 and $177.76 on 5/17/04. Since the entire
restitution was paid in full $7,959.51 must have been embezzled and stolen by USA. This
also represents an attempt to collect twice on one debt, a violation of the double jeopardy
clause.
27) 1/5/05 the Minnesota Revenue department claimed they were not paid $138.26 that was
collected in restitution it was stolen and embezzled;
28) In 2005 USA withheld George Verkler’s 2004 income tax refund of $1,660.19 for offset
for restitution;
29) 1/6/06 after years of calls and letters US Attorney John McKay and paralegal Castillo
stipulate to collecting $288,022.03 while only claiming to have sold 1 out of 10 gold coins
and not yet selling personal assets;
30) 3/16/07 the US Department of Justice sent an administrative offset notice claiming a
balance due of $75,157.13. That means US was only claiming to have collected
$127,765.87, which means with monthly payments at least $164,956.16 was embezzled and
stolen by USA or the court;
31) In 2007 USA withheld George Verkler’s 2006 income tax refund of $20,474.88 for offset
for restitution;

USA v Verkler 20-30161

32) 4/22/08 USA’s DOJ said they collected $150,214.80. That was nearly all from mutual
funds, $103,424.54, but the court already recognized $188,528.87 from mutual funds, this
must be with monthly payments $98,842.44 was embezzled and stolen by USA from the
1/6/06 stipulation it recognized $46,790.24 from the sale of real estate, but the house sold
for $105,000 with the government getting half for restitution, which means USA embezzled
and stole $5,709.76. It showed $4,850 for the sale of a coin, there are 9 other coins also
stolen and embezzled, half of that was to go to George Verkler, besides the fact that any
excess collected on restitution was to be returned to Mr. Verkler;
33) In 2008 USA withheld George Verkler’s 2007 income tax refund of $20,414.88 for offset
for restitution;
34) by 9/2/08 Mr. Verkler paid $5,800 in monthly payments because of probation extortion;
34) 7/1/10 the US Courts sent a report stating they collected only $28,922.94. Which means
USA and the court embezzled and stole $427,763.88 funds;
35) In 2011 USA withheld George Verkler’s 2010 income tax refund of $9,066 for offset for
restitution;
36) 5/17/11 Judge Benjamin H. Settle signed a garnishment order for $173,982.82 from
Invesco Funds submitted by Ass US Attorney Anastasia D. Bartlett. Neither were assigned
to the case. It is a matter of record that George Verkler was not served of this court action.
There is no evidence that any attempt was made to serve George Verkler with notice of this
proceeding. The garnishment order does not appear on the docket. That means judge
Settle and ass US atty Bartlett were not acting in their official capacity. No credit was
given for the money collected and it was not paid to Mr. Verkler so it was embezzled and
stolen. Judge Settle and Ass US Atty Bartlett knew from court records that $188,528.87
USA v Verkler 20-30161

was collected before George Verkler was released and that George Verkler’s house, gold and
silver coins and other assets would be sold and cash payments had been made so more was
collected than the restitution. The Ass US Atty knew that on 1/6/6 US Attorney John
McKay and Assistant Lei Castillo stipulated that they collected $288,022303 and the gold
coins and personal assets had not been liquidated. The US Atty knew that tax refunds
were withheld for offset for restitution even though no amount was still owed. By the
reasonable man standard judge Settle must have also known this. This means the entire
amount of the garnishment would have to be paid to George Verkler, but none was. There
is also no record of the Writ of Continuing Garnishment, Invesco’s Answer to the
Garnishment, the Garnishee Order, the Order Terminating Garnishment Proceedings)
37) in March 2012 a State Department of Revenue levied $1,636.20;
38) 4/5/12 the Minnesota Revenue department increased the amount they said was due to
$6,191.68. That indicates that someone in their department embezzled $6,053.42. George
Verkler called them on 5/29/12 the man admitted that he never saw an audit this old. He
said notes were from Westly and tried to transfer the call to her, Mr. Verkler left a
message. On a 6/11/12 call Sara Westly admitted it was federal restitution that was all
paid;
39) 4/6/12 the State of Wisconsin Department of Revenue claimed George Verkler owed
$34,008.33 and garnished the money on an original balance of $8,321.79. The court ruled
Mr. Verkler would pay no interest nor fines. Again, this is a violation of the double
jeopardy clause. He got jail time and had to pay restitution. Wisconsin only showed
$2,037.46 was paid although USA and the court collected more than the full amount of the
restitution. The difference was embezzled. And Mr. Verkler established that USA and the
court already collected the full amount of the restitution so it is USA that would owe them.
USA v Verkler 20-30161

On 5/25/05 the State acknowledged receiving Mr. Verkler’s letter and referred it to M.
Nelson. Despite that on 10/14/11 Wisconsin filed a Notice of Levy!
40) In 2012 USA withheld George Verkler’s 2011 income tax refund of $18,968 for offset for
restitution;
41) In 2013 USA withheld George Verkler’s 2012 income tax refund of $2,164 for offset for
restitution;
42) In 2014 USA withheld George Verkler’s 2013 income tax refund of $8,968.02 for offset
for restitution;
43) 7/28/15 US Attorney Annette L. Hayes and Ass US Attorney Francis Franze-Nakamura
stipulated they know George Verkler claims that USA owes George Verkler over a million
dollars;
44) 11/05/19 Todd Skipworth sent George Verkler a letter stating that on the first case only
$32,020.98 was collected after the balance was $192,644.05. That means the court and
USA stole and embezzled $551,484.18. In the second ease it did not show any of the cash,
gold or silver or van collected for restitution per court records. Clearly US is trying to
conceal moneys they collected and muddle the record to make their handling of the money
untraceable. On 2/28/20 George Verkler sent a letter to Todd Skipworth disputing his
figure and showing all the payments that were made. Mr. Verkler called on Mr. Skipworth
to find out who embezzled the money and to correct the records. Todd Skipworth claimed to
forward the information and documents to the US Attorney’s office and transferred the
information to Timisha Gilbert. The US Attorney’s office has not responded. Timisha
Gilbert said she a forwarded the documents to the US Financial Litigation Unit. Timisha

USA v Verkler 20-30161

Gilbert and I have exchanged several phone calls. She claims the Financial Litigation Unit
is looking into it, but I have not heard of any real progress.'
45) 4/16/20 court records Mr. Verkler’s request for effective counsel to solve problem of
USA’s infinite fines and embezzlement;
46) 4/17/20 since there is no docket number the false entry “Case as to George E Verkler
Reassigned to Judge Benjamin H. Settle. (JW) (Entered: 04/17/2020)” This is the same
judge that embezzled and stole $173,982.82 while not assigned to the case.'
47) 5/27/20 the same judge Settle denies appointment of counsel;
48) In 2020 USA withheld George Verkler’s 2014 income tax refund of $18,386 for offset for
restitution.
49) 6/02/20 Mr. Verkler files Motion To Rebut Judge’s Lies To Assign Attorney To Deal
With Illegal Fines And Embezzlement Of Collected Funds And Demand An Impartial
Judge;
50) 7/8/20 the same judge Settle denied the motion to rebut his lies, assign counsel to deal
with his and others imposition of unconstitutional and illegal fines and for an impartial
judge!
51) 7/21/20 Mr. Verkler filed notice of appeal to district and circuit courts.'
52) 08/17/2020 USA by US Attorney Brian T. Morgan and Ass US Atty Charlene Koski in
their Answering Brief for case 20-30097 stipulated they knew Mr. Verkler claimed USA
owed Mr. Verkler $1.7 million p 10 In 11 which would be from excess money collected from
Mr. Verkler's 2001 case.'
53) 8/19/20 Mr. Verkler filed Response to Court’s Denial of Right to Attorney;
USA v Verkler 20-30161

54) 11/13/20 circuit court dismisses appeal without consideration;
55) 11/24/20 Mr. Verkler filed Petition for Rehearing!
56) 1/12/21 USA engages in vindictive prosecution by filing a complaint for a violation of
condition of supervised release after supervised release ended and for the charge of not
paying monthly payments although USA knew Mr. Verkler did not owe money!
57) 3/3/21 court changed Petition for Rehearing to motion for reconsideration to deny it!
58) 3/10/21 Mr. Verkler filed for an en banc appeal!
59) 3/11/21 the court issued a false mandate that did not need legal requirements without
ruling on the en banc appeal!
60) There are many other records on contacts made to resolve the dispute that were stolen
from George Verkler by USA in an armed robbery on 10/16/14. USA refuses to submit
copies of these records as required by discovery and the FOIA act.

USA v Verkler 20-30161

REASONS FOR GRANTING THE PETITION

United States Ninth Circuit court of appeals has entered a decision in conflict with
the decision of another United States court of appeals and the Supreme Court on the same
important matter; and has so far departed from the accepted and usual course of judicial
proceedings, and sanctioned such a departure by a lower court, as to call for an exercise of
this Court's supervisory power. United States Ninth Circuit court of appeals has decided
an important question of federal law that has not been, but should be, settled by this Court,
and has decided an important federal question in a way that conflicts with relevant
decisions of this Court.
The proceeding involves one or more questions of exceptional importance, each of
which must be concisely stated the panel decision violates^ l) due process and threatens to
destroy due process for any ease any district judge or any circuit panel of judges wherein
they wants to violate due process! 2) the constitutional and legal right to assistance of legal
counsel, 3) the protection against double jeopardy! 4) the constitutional and legal right to an
appeal and an impartial judge! 5) the constitutional and legal right to an hearing! 6) the
right of a victim to rescind a contract when the other party commits breach of contract! 7)
the court’s obligation to obey the Constitution and Law and its an abuse of discretion! 8) the
constitutional and legal protection against the cruel and unusual punishment of infinite
fines for a non-violent crime amounting to less than $250,000, 9) the constitutional and
legal right of every person to claim protection of the Constitution and the laws! 10) the
panel decision violates the truth that the government or member of it has no right or
authority under the Constitution or the Law to commit^ crimes, torts, conspire or lie
against an American.
Due Process Clause was violated because Mr. Verkler was not notified that the court
USA v Verkler 20-30161

would conspire to impose additional penalties without notice or an hearing. The court
rejected the plea agreement and did not inform Mr. Verkler the court was not required to
follow the plea agreement in violation of FRCrP 11 (b)(5)(A)&(B) so Mr. Verkler has taken
the opportunity exercise his right to withdraw the plea.
Mr. Verkler was denied access to the courts in violation of the 5th Amendment. The
courts openly refused to consider motions and briefs filed by the defense and declare the
defense has no right to access the courts. It has been established by the court’s writings
that they did not read much of what was presented to them.
The Supreme Court, the all the circuit courts recognize the right of a defendant in a
criminal case to have legal counsel in such a case. But the Ninth Circuit denies all Mr.
Verkler’s rights in this case, and: 15-30244, 16*3,30001, 17-30237, 18-30073, 20-30097, and
20-35559. Settle denied legal counsel. The district commonly denies counsel
Mr. Verkler claims the right to counsel at every step including challenging USA’s
and the court’s imposition of punishment not authorized under the sentence on record. The
court’s decision not to appoint an attorney to an indigent defendant in a criminal case
violates the US Constitution, Congressional Statute, Federal Rules of Criminal Procedure
and precedents. Under Powell v AL and US v Wade Mr. Verkler claims the right to counsel
at every step including challenging USA’s and the court’s imposition of punishment not
authorized under the sentence on record. This is a criminal case and even if it was a civil
case the district judge and the appeals court judges lied stating they cannot appoint
counsel. Without counsel the Defendant is not allowed a chance. The court may not rule
against a defendant without counsel.
“Judges have a duty to ensure that the right to counsel as a jurisdictional
prerequisite to depriving a person of his or her liberty is fully honored.” Frazer v US;
USA v Verkler 20-30161

Johnson v Zerbst. “A court’s unreasonable or erroneous refusal to substitute counsel is
presumptively prejudicial and requires reversal because it constitutes the constructive
denial of counsel. US v Velazquez; US v Nguyen? see also US v Gonzalez-Lopez (“We have
bttle trouble concluding that erroneous deprivation of the right to counsel of choice, with
consequences that are necessarily unquantifiable and indeterminate, unquestionably
qualifies as ‘structural error.’” (internal citation omitted).” St of WA v Delila Reid. "The
deprivation of the right to counsel... can never be treated as harmless error." Frazer v US;
US v Iasiello; US v Leonard; Roney v USi Shepherd v US? Green v US; US v Maxwell. This
court has no authority to rule against Mr. Verkler since Mr. Verkler is not allowed counsel.
The courts indicate they will not allow truth or justice.
The imposition of multiple punishments beyond the sentence violates the Double
Jeopardy clause. For USA to seize funds that the sentencing court did not order is a clear
double jeopardy violation and not allowed under the Preamble. The US Constitution also
states property cannot be taken without due process of law. To decide to take more
property without notice and without regard to any evidence and without allowing the
Defendant to present his case and without, an hearing or court order and when judge Settle
does order money taken, he does it off the record and keeps the money rather than turning
it in means he is not impartial and Settle committed embezzlement under color of law.
The US Constitution indicates there is a right to appeal and make collateral attack
and win by requiring due process and authorizing Congress to establish courts inferior to
the Supreme Court. The 5th Amendment’s requirement of due process means that if the
original court violates due process then a defendant must have the right to appeal. Federal
Rules of Criminal Procedure grants appeal as a right. The appointment of counsel is
separate from and collateral to the rights Mr. Verkler asserts in his cause of action. The
USA v Verkler 20-30161

allows Mr. Verkler to appeal an interlocutory decision by the district court. By denying Mr.
Verkler counsel the courts are indicating they will not allow Mr. Verkler to win his case.
The court issued an invalid mandate without ruling on the En Banc appeal. There
is no certified copy of the judgment and is no opinion. There is no statement about costs.
The order is not legal. The Ninth Circuit denied that Mr. Verkler has a right to appeal and
stated they will not entertain filings in this case.
The trial judge is the only actor in the criminal justice system who has the power to
ensure that the accused actually receives all of the other procedural due process safeguards
guaranteed by the federal Bill of Rights and the rules of evidence. If the trial judge fails to
protect the defendant's rights adequately, then unless the defendant has recourse to
appellate review, all of the theoretically guaranteed constitutional rights may prove
worthless. Unless the concentrated powers of the trial judge are to go unchecked, some type
of a second hearing-an appeaHs constitutionally required by the due process clause of the
fourteenth amendment. In this case the trial judge steals from the Defendant.
FRCrP ll(c)(4)(5)(A)(B) were violated because USA went against the plea agreement
to impose an additional prison sentence beyond what was allowed under the sentence,
illegally converted amounts paid toward restitution to fines not ordered and refusing to
reduce the balance of restitution for amounts collected, illegally increased the restitution
amount to infinity and imposed large extra fines without limit in violation of due process
and without just compensation (credit for amounts collected). There has been no trial or
hearing any time or anywhere to impose any such additional punishments. Mr. Verkler has
the right to the assistance of legal counsel for his defense, but that right was violated.
Since the court accepts unlimited restitution and fines then it has rejected the plea
agreement in violation of FRCrP 11. Mr. Verkler has already shown fair and just reason for
USA v Verkler 20-30161

withdrawing his guilty plea and has already done it. The court must officially recognize
and record the withdraw of the guilty plea and vacate the conviction and sentence.
Mr. Verkler is entitled to an impartial judge according to 28 USC sec 455; Goldberg
v Kellvi McNabb v US. 347; In re Murchison; Glasser v US. 72; Hallidav v US; United
Retail and Wholesale Employees Teamsters Union Local No. 115 Pension Plan v Yahn and
McDonnell. Inc, 138. What processes are due? The Goldberg Court answered this question
by holding that the state must provide a hearing before an impartial judicial officer, the
right to an attorney's help, the right to present evidence and argument orally, the chance to
examine all materials that would be relied on or to confront and cross-examine adverse
witnesses, or a decision limited to the record thus made and explained in an opinion. The
Court's basis for this elaborate holding seems to have some roots in the incorporation
doctrine. A defendant has... "the right to an unbiased decisionmaker," see Board of Educ. v.
Rice; H. WADE, ADMINISTRATIVE LAW 171-218 (3d ed. 1971), even tracing its origin
back to Genesis, Rex v. University of Cambridge.
The US Constitution states it is to establish justice and liberty for a more perfect
union and only allows judges to remain in office during good behavior indicating they must
obey the US Constitution and the Law and be fair, just and impartial, not lie nor commit a
crime against people. That even purportedly fair adjudicators “are disqualified by their
interest in the controversy to be decided is, of course, the general rule.” Tumeyv. Ohio,
Syllabus # 1, 522. Hamdi v Rumsfeld. 542 US 547, III D (2004). Judges can only issue
warrants upon probable cause supported by evidence, they are to be impartial. “When the
opposing party puts forth no facts, no law and no argument to support their positions it is
illegal for the court to rule on their behalf.” Old Colony Trust Co. v Commiss’r of Int Rev.

USA v Verkler 20-30161

Furthermore FRCrP 1(b)(2) states, “’Court’ means a federal judge performing
functions authorized by law.” So, a judge must act according to law and according to the
evidence to be impartial. It also means when a judge acts contrary to law it is not “Court”.
It means the judge becomes a vigilante when he acts contrary to law; and his decisions and
orders are null and void.
The judge’s actions as a thief, embezzler and other crimes, violations of the
Constitution and Supreme Law prove he is not impartial. US v Cross. 314; United Retail
and Wholesale Employees Teamsters Union Local No. 115 Pension Plan v Yahn and
McDonnell. Inc. Great Western Mining and Material Co v Fox Rothschild LLP;
Nesses v Shepard, 1005; Marshall v Jerrico, Inc., 242.
The US Constitution and several Laws establish a defendant’s right to an hearing.
The US Constitution and Law establish a right to trial by jury and due process and the
right to appear before a judge which means a right to an hearing from initial appearance
through appeal and specifies a right to an hearing. In an ordinary case a citizen has a right
to a hearing to contest the forfeiture of his property, a right secured by the Due Process
Clause, United States v. James Daniel Good Real Property. 510 U.S. 43, 48 -62 (1993);
Fuentes v. Shevin. 407 U.S. 67, 80 (1972); McVeigh v. United States. 11 Wall. 259, 266-267
(1871).
“Very notion of hearing, under due process..., however informal, connotes that
decision maker will listen to arguments of both sides before basing decision on evidence and
legal rules adduced at hearing.” Billington v Underwood; Goldberg v Kelly. 271; In re
Murchison; Dunn v US. 107.

USA v Verkler 20-30161

The most recent decisions of the Supreme Court show a resumption of the trend
toward greater and greater insistence on hearings. North Ga. Finishing. Inc, v. DrChem,
Inc.. 723; In Goss v. Lopez the Supreme Court pushed the requirement of "some kind of
hearing", “...court must take defendant’s allegations as true...” Mack v US. "[A] hearing in
its very essence demands that he who is entitled to it shall have the right to support his
allegations by argument however brief, and, if need be, by proof, however informal.
Londoner v. Denver, 386; Joint Anti-Fascist Refugee Committee v. McGrath. 171-2. "The
Court has consistently held that some kind of hearing is required at some time before a
person is finally deprived of his property interests." Wolff v. McDonnell. 557-8.
“...contention that [defendant’s] allegations are improbable and unbelievable cannot serve
to deny him an opportunity to support them by evidence” Walker v Johnston. 287;
Machibroda v US. 495. "...the denial of that right is a controversy." Willner v. Committee
on Character. 102. The essence of due process is the requirement that "a person in jeopardy
of serious loss [be given] notice of the case against him and opportunity to meet it." Joint
Anti-Fascist Comm, v. McGrath. p349 ? (1950). It is likewise fundamental that notice be
given and that it be timely and clearly inform the individual of the proposed action and the
grounds for it. Boddie v. Connecticut; Goldberg v. Kelly; Armstrong v. Manzo; Mullane v.
Central Hanover Bank & Trust Co.. Stewart v. Jozwiak. “Due Process clause requires at a
minimum that deprivation of life, liberty, or property by adjudication be proceeded by
notice and opportunity for hearing appropriate to nature of case.” Gropni v Leslie.
Defendant proved he was to receive credit towards restitution for amounts collected,
PLEA CONTRACT and USA collected substantial sums USA version of PLEA CONTRACT
but USA takes away no credit for what it collected. That is a clear breach of their contract.
"... where the government has breached or elected to void a plea agreement the defendant
USA v Verkler 20-30161

is necessarily released from an appeal waiver provision contained therein... a defendant
may seek... withdrawal of the guilty plea...” US v Gonzalez (2002 CA5 Tex) 309 F.3d 8824;
Santobello v New York, 404 US 257, 30 Led 2d 427 (1971); US v Puckett

, 556 US 129, 129

S Ct 1423, 173 L Ed 166 <2009); US v Saline. 205 F.3d 764, (5th Cir 2/29/00);
>’ US v Pollard
959 F. 2d 1011 (295 App DC 7) (9/10/91); US v VanThourmount. 100 F.3d 590 (3d Cir 1996);
Dunn v Collaran, 247 F.3d 450, 462, Penn 12/7/2000; Kingsley v US 968 F.2d 109 (1992,
CA1 Mass) (1992); Cosby v Muncy (1979, ED Va) 469 F Supp 658; Williams v Estellp (1982,
CA5 Tex) 681 F.2d 946; also USvAmmirato. 670 F.2d 552, 554 - 555 (5* Cir 1982)(s2255);
tonvUS’ 492 F‘2d 775> 776 (5th Cir 1974). The plea agreement and sentence

specifically

calls for credit for amounts collected.
It is an abuse of discretion to apply the wrong legal standard, US v Rni? 1033. The
circuit court clerk has applied the wrong standard to this case. This is a criminal case,
decision to deny Mr. Verkler's right to an attorney was a final decision, and the clerk

The

may

not lie about the effect of a Supreme Court opinion, Arce v Garcia. 1260.
According to FRCrP 1(a)(1) the rules govern all criminal proceedings in all US
courts. To apply a different standard in order to commit a crime against a defendant is not
allowed. The judges cite 28 USC 1291 which does not apply and they also cite Cohen but
got it backwards. The correct law is 28 USC 1292. The higher court needs to overturn the
illegal lower court decisions. “The burden always remains with the government” US v
Dozier, #100. American rights, liberty, justice, the honor of USA, the judicial system,

and

the legal profession are all at stake.

The courts overlooked that the district court has not only abused discretion, it has
violated discretion, and it has violated the US Constitution and Supreme Law and rebelled
against Supreme Court precedents and Ninth Circuit and other Circuit Court precedents.
USA v Verkler 20-30161

Settle blatantly lies about the case he cited, even saying the opposite. The Ninth Circuit
has the same problem. Settle did not consider the relevant record or what Mr. Verkler
presented. Settle had no authority to make a ruling against Mr. Verkler because l) it has
been established beyond any reasonable doubt that Settle is not impartial 28 USC 455,
Goldberg v Kelly, 397 US 254 (1970); Hallidav v US; 2) Mr. Verkler was not allowed counsel
for appeals 15-30244, 16-30001, 17-30237, 18-30073, 20-30097, 20-35559 there is a
jurisdictional bar that forbids the court to rule against Mr. Verkler (Johnson v 7arW the
court still has not done its duty to rule in Mr. Verkler’s favor for all appeals; 3) Mr.
Verkler’s right to a defense was violated; 4) courts violate due process and abuse discretion;
5) the guilty plea was not knowingly made; 6) breach of contract by USA; 7) double jeopardy
was violated; 8) the appellate court did not: conduct an examination of the case, read the
sentence, read any transcripts, Mr. Verkler’s filings, nor Mr. Verkler’s briefs; 9) Also, USA
did not fide an answering brief for: appeals 15-30244, 16-30001, 17-30237, 18-30073, 2030097, 20-35559, so the court was obligated to rule in Mr. Verkler’s favor. Settle’s activities
are a mockery of justice, completely void of factual or legal basis. Settle has acted outside
his legal authority to commit felony crimes against Mr. Verkler.

The imposition of multiple punishments beyond the sentence violates the
Double Jeopardy clause. The court and USA have violated the Constitution Preamble,
Article III Section 2, Fifth, Eighth Amendments by imposing punishments without charges,
a trial, a guilty plea or a nolo contendere plea, all without a court order and without due
process of law that he was not sentenced to endure: l) imposing indefinite fines; 2) denying
legal counsel; 3) denying court access; 4) denying legal counsel.
For USA to seize funds that the sentencing court did not order is a clear double
jeopardy violation and not allowed under the Preamble. The 5th Amendment also states
USA v Verkler 20-30161

property cannot be taken without due process of law. To decide to take more property
without notice and without regard to any evidence and without allowing the Defendant to
present his case and without a trial, an hearing or court order and when judge Settle does
order money taken, he does it off the record or stole the court record and keeps the money
rather than turning it in means he is not impartial and Settle committed theft and
embezzlement under color of law. They all violate due process. Because there has been no
court ordered fines or increase in restitution their imposition is unconstitutional and illegal.
Mr. Verifier's withdraw of the guilty plea took place before the court-imposed
sentence and the Defendant did show fair and just reasons for the withdrawal. USA and
the court also unjustly took property without just compensation. Both the US Constitution
and the plea contract require USA and the court to give credit to Mr. Verifier for what they
collect. They do not give credit for much of what they collected. Not only did they not give
credit for much of what they collected, they actually reduced the amount they stipulated to
collecting a number of times. On 1/6/6 USA stipulates they collected $288,022.03 (Exhibit
1G). On 4/22/8 USA claims the amount collected was down to $143,448.80 despite the fact
USA had collected more money since 1/6/6. On 11/5/19 USA decreased the amount they
claim they collected down to $32,020.98 despite collecting more since 11/5/19 (Exhibit 1A).
For USA and judge Settle to take more money than agreed in the Plea Contract and
ordered by the sentencing court constitutes unjust excessive illegal fines. It also proves
breach of contract and Mr. Verkler has the right to reject the whole deal. So, the Defendant
can rescind the Plea Contract for USA's breach of contract. Once USA stipulates receiving
money they cannot deny it." The Defendant can rescind the Plea Contract for fraud. Fraud
exists because USA lied about limiting the restitution to the amount ordered by the court,
and USA lies about the amount they received. That means the only way to stop USA and a
USA v Verkler 20-30161

judge like Settle is to reverse the conviction and sentence they use to impose unlimited
fines and stealing money.
By not give credit for funds collected and take more money than agreed in the Plea
Contract and ordered by the sentencing court constitutes unjust excessive illegal fines.
Refusal of USA, probation and the court to give credit for payments made also proves
breach of contract and Mr. Verkler has the right to reject the whole deal, 28 USC 3308,
UCC § 2-601. So, the Defendant can rescind the Plea Contract for USA's breach of contract.
Once USA stipulates receiving funds, they cannot deny it." The Defendant can rescind the
Plea Contract for fraud. Fraud exists because USA lied about limiting the restitution to the
amount ordered by the court, and USA lies about the amount they received. That means
the only way to stop USA and a judge like Settle is to reverse the conviction and sentence
they use to impose unlimited fines and stealing money.
18 USC 4 not only makes it a felony for the judges, prosecutors and my attorneys to
refuse to report the crimes against Mr. Verkler it means Mr. Verkler has protection under
the Law and access to the court to report those crimes. “The very essence of civil liberty
certainly consists in the right of every individual to claim the protection of the laws,
whenever he receives an injury such as the government committing crimes against him and
his loved ones.” Marburv v Madison 163.
As the [Supreme] Court has repeatedly emphasized, was to confer upon the federal
courts the duty to accord a person prosecuted... every safeguard which the law accords ...”
Sinclair v US, 296*7; Watkins v US. 208; Sacher v US. 577; Flaxer v US. 151; Deutch V US.
47L Russell v US, 755. “... the substantial safeguards to those charged with serious crimes
cannot be eradicated under the guise of technical departures from the rules.” Smith v US.
9; Russell v US. 763-6 nl3.
USA v Verkler 20-30161

a democratic society, in which respect for the dignity of all men is central,
naturally guard against the misuse of the law enforcement process. Experience has
therefore counseled that safeguards must be provided against the dangers of the overzealous as well as the despotic.” Me Nabb v US. A defendant has the right to pursue his
statutory rights without being subject to a significant increase in ... punishment, US v
Jackson; Blackledge v Perry. 28-9; US v Groves. 453; US v DeMarco. 1226; US v Oaks. 940.
The “district court erred in allowing forfeitures where neither the indictments [or
plea contract] mentioned or included [them]” US v Seifuddin; TTS v Miahla-Aldarondo.
Although the entire US Constitution was not presented it can be seen that the
original body mainly establishes how to set up the government and tells what it can do.
Some amendments give the government additional powers, but neither the US Constitution
nor the Law ever gives anyone in the government power or authority to commit a crime or
to lie against any American person. And the Tenth Amendment denies the US government
all powers and authority not specifically given in the US Constitution. As in Agnello v US.
32; Boyd v US. 617, 630, 635; Bvars v US. 32; GouledvUS. 298, 304; Weeks v US;
Siverthorne Lumber Co v US; US v Lefkowitz. 466-7; the Court ruled the amendment
merge to expand a person’s rights beyond what each amendment does on its own; Roe v
Wade, 152 in a line of decisions the Court has recognized that the right to privacy goes
beyond each individual amendments the Court should recognize people in government
cannot commit a crime, a tort, conspire or lie against an American. Unlawful acts and
violations of rights are not to be sanctioned by the courts, Weeks v US. 383. This court has
the opportunity to put forth the greatest advancement for justice and freedom since the
civil rights movement.

USA v Verkler 20-30161

The entire conflict with the United States began when US agents brutally beat up
and gang raped Mr. Verkler’s fiancee which also violates the Preamble. Since the conflict
broke out multiple official representatives of the US government made a legally binding
admission to the Ninth Circuit Court, they did assent and agree, that US agents did
brutally beat up and gang raped Mr. Verkler’s fiancee (Exhibit P p6,10). It has also been
revealed that after Jeffery Epstein’s last arrest, it was revealed that 4 out of 5 of the last
Presidents, the majority of federal judges and the majority of US Senators were customers,
johns, of Jeffery Epstein that raped little girls that had been enslaved by Epstein. It was
also revealed that federal employees rape about 500,000 innocent women every year,
(en.wikipedia.org/wiki/Rape_in_the_United_States). During WW2 the government
kidnapped 120,000 people and 62% were American citizens (Internment of Japanese
Americans, en.wikipedia.org). Prior to Martin Luther King Jr.’s civil rights movement it
was common for the government to oppress, exploit, discriminate against impose apartheid
upon blacks, torture, imprison and murder them. It is true that there is nothing in the U.S.
Constitution or federal law that gives anyone in the government authority to commit a
crime, a tort, conspire or he against an American.
The court did not explain most the seriousness of the charges. The court did not: 1)
say Mr. Verkler would not get credit for prior amounts collected, instead the judge said I
would get credit for prior amounts collected; 2) say Mr. Verkler would not get credit for
amounts forfeited or collected after the plea, instead the judge said Mr. Verkler would get
credit towards restitution; 3) say Mr. Verkler would be denied future access to the court; 4)
say Mr. Verkler could not get legal counsel in the future; 5) would have to pay an infinite
amount in fines even without a court order, instead the judge said the maximum fine was
$250,000 and the judge ordered no fine. It need not be established “that there was a formal
USA v Verkler 20-30161

agreement to conspire! circumstantial evidence and reasonable inferences drawn therefrom
concerning the relationship of the parties, their overt acts, and the totality of their conduct
may serve as proof US v Kaczmarek; US v Cosrwell; US v Whaley! US v Griffin! US v Mavo!
US v Washington. Only slight evidence to prove that an individual was a member of the
conspiracy, US v Castillo! US v Gironda! US v West! US v Robinson! US v Marrapese! US v
Nunez! US v Braasch!
It was proven lawyers, judges, magistrates, prosecutors, police, sheriffs, marshals,
secret service agents, prison staff, customs officers, clerks, court employees, tax collectors,
Department of Agriculture officers, politicians and their employees, political enemies,
lobbyists, or any public official, any individual in the public sector or any entity in the
public sector, even entire departments, courts, municipality, utility or corporation! cannot
commit a crime or conspiracy, a tort or he like! kidnapping, illegal gun use, delay in
arraignment, or trial, indefinite detainment, attempted murder, murder, false or
misleading testimony, no claim that a statement was obtained without coercion or
accurately recorded and relevant can make it admissible and it is on overriding concern
that effective sanctions be imposed against illegal arrest and detention, punishment prior
to judgment of conviction, subterfuge, pretext, lying, bribery, filing false income tax forms,
RICO, extortion, attempt to illegally solicit, blackmail, threats not even against loved ones,
third degree, assault, battery, torture, promises to discontinue improper harassment, a
shakedown, use of the spoils system, kickbacks, theft of documents, theft, embezzlement,
receipt or possession of stolen goods, corruption, scheme or artifice to defraud, or for
obtaining money or property by means of false or fraudulent pretenses, representations, or
promises, to harm, untoward blandishments, or to sell, dispose of, loan, exchange, alter,
give away, distribute, supply, or furnish or procure for unlawful use any counterfeit or
USA v Verkler 20-30161

spurious coin, obligation, security, or other article, or anything represented to be or
intimated or held out to be such counterfeit or spurious article, for the purpose of executing
such scheme or artifice or attempting so to do, obstruction of enforcement of criminal law,
obstruction of justice, unauthorized exercise of power, exceeding official power, violating a
law relating to office, violating to use all lawful means to prevent injury, drug crimes,
illegal gambling, cover-up, mutilate or conceal files, false statements in court, perjury,
planting evidence, withholding evidence, falsifying evidence, skullduggery, falsifying
documents, falsifying the document, fabricating stories or evidence, inducing a witness to
testify falsely, intimating a witness, witness tampering, depriving of honest services,
various types of governmental interference that deprive the defendant of the right to
witnesses, deprivation of rights, fraud, mail fraud, wire fraud, conspiracy,
misrepresentation (including unfulfilled or unfulfillable promises), or perhaps by promises
that are by their nature improper or any crime under color of law, refusal to due one’s duty,
under color of official right)' and they should get a more severe punishment and citizens
have a right to good government Brady v Maryland, 86, 87; Brady v US, 755, Brown v
Miss.. 281-7; Bvnum v US. 466-7; Carpenter v US. 571, 572; Cote v US. 309 or 793; Davis v
St of NC. 752-3; Ginoza v US. outcome; Govt of Virgin Is v Solis. 620*1; Miranda v AZ. 447;
US v Margiotta. 132-3, #1,2,4,5,8-10,84; US v Maves. outcome! Me Nabb v US. 269, 271-2;
US v Mitchell. 67, 70, 88! US v Jernigan. 1213-4; US v Lefkowitz, 464; US v Middleton.
overview; US v Morales, outcome, 851-3; US v Roth. 1383; US v Osunde. overview, 173,
175-7, ?! US v Sotoj-Lopez! Upshaw v US. 413 summary! Me Nabb v US. 344! US v Roth;
Branion v Gramlv! US v LeFevour! US v Devine! US v Connecticut; US v Murphy! Safinas v
US. 63-5; US v Nardello. 286-9; US v Ruiz. 508, 3, 39, 40; US v Angelilli 30-5 #1,2; US v
Bacheler. 450; US v Frumento. ?-1092; US v Mazzei. 643-4, #1, 17, 37! US v Twigg. 381; US
v Altomare. 7*8; US v Baker. #1, 9; US v Long. 241-2, #1,2,21! Shelton v US. 572 n2; US v
USA vVerkler 20-30161

Brown. 262; US v Dozier. 543 n8, #1-14, 16, 32, 114-5; US v Hathaway. 393; US v
Hammond. 1012-3; Webb v Texas. 95; US v Heller. 152-3; US v Wright; US v Dischner.
1511, 1515 nl5, #2-5,8,21,26,51-2, 61; US v Bagnariol. 1, 85; Marrow v US; US v Whalen.
1348; US v Olinger; US v Guest. 745; Wilkins v US; US v Ehrlichman; US v Jacquemain;
US v Romero,' US v McFall. posture; US v Bvrne. 18-20; US v Ronda? US v Vega? US v
Ferreira, 51; US v Black; Wolfish v Levi; Cupit v Jones? Matzker v Hen? Duran v Elrod.;
Green v Baron? Johnson-El v George? Villanueva v George? Berry v Muskogee? Sampson v
Schench? Sutton v US? US v Lefkowitz; Taglavore v US. 265; Warren v Lincoln; Ferrara v
US. 26th pg? Missouri v Blair; US v Partida. 562, #2,83,89; US v Welch. 1039-47, 1057, 1059,
1060, 1062, 1064-5, 1067-70, 1.A.C.D.III A.l.C.l.D.1.2; US v Sivils. 596, #2,23,73? USv
Thompson. 998-1000, #2,39,45,53-6, 69? US v Grzvwaez. 686-7, 690, #1-10,12-20,2225,29,36; US v Hocking. 769, 777? US v Lee Stoller Enterprises. Inc.. 1317-9, 1"4,10, 12; US
v Masters? US v Rindone. 491, 494*5? USv Schmidt, posture, 830-2; US v Shamah
overview, 451-2, 455, 457-9; US v Jacquemain? US v Clark. 1261-7, #3,4,28? US v Bordallo.
#1,3-6,8,27,45,50; US v Egan. #2,18; US v Gates. #1-2, 34-5, 38; Diaz v Gates. #1.2, 22, 26;
US v Ohlson. 1349, #2. 9? US v Graham. #1,8; US v Cross. 310-3? Nesses v Shepard. 1005.
(“The court noted that is sees a 'ton of police misconduct cases’ and many police officers
that had come before the court had long records of citizen complaints”) US v Carson.
posture, 570-2, 590; US v Townsend; US v Zwick. 685; Sutton v US “... those who commit
crimes themselves cannot prosecute other’s crimes.” see US v Blackwood. 134-6, #2,3,7,60;
USv Holzer. 305-7, 310; US v Rabbitt. 1019-21. 1026. For USA to he is plain error, US v
Lane. 1399. “Case must be remanded for full consideration of delay between defendant’s
arrest and his appearance before magistrate...” US v Keeble. An indictment does not
eradicate any deprivation of constitutional rights, US v King. 776.

USA v Verkler 20-30161

a [government] defendant may be found guilty of conspiring... even if the
defendant did not join the conspiracy until after its inception and even if the defendant
played only a minor role in the whole scheme... defendant is bound by all acts of other co­
conspirators that occurred during the conspiracy, even if those acts were unknown to the
defendant.” US v Broadwell. 602_and do not need to know the others in the conspiracy US v
Wilson, 1253; US v Andrews. 1496; US v Holloway. 679; US v Scrushv. 468. As in Re
Oliver, 273 the courts decided to keep secrets from the public.

it was not necessary to

prove that they knew their conduct was unlawful. US v Reese; US v Barker; US v Brown,
415; US v Burchinal. 992, #28; US v Winter. 1136; US v Cruz. 782-3; US v DeVincent. 159;
US v Torres Lopez, 524; US v Angiulo. slip op at 14*15. “Uncharged acts [by government
personal] may be admissible as direct evidence of the conspiracy itself.” US v Diaz. 79; US v
Castro; US v Matera, 121; US v Meiia. 206-7. “The overt act... need not be itself a crime.”
Bannon & Mulkev v US. 468, 469; Joplin Mercandile Co. y US; US v Rabinowich. 86; Pierce
v US, 244; Braverman v US. 53; “18 USC 241 does not require that any overt act be shown”
US v Morado? US v Skillmen? US v Whitney? US v Ellis? TTS v Bufalinn; US v Cola. 1124;
nor an overt agreement US v Weiner. No direct evidence is needed, Glasser v US. 80? US
v Manton, 839? US v Hinojosa? only circumstantial evidence US v Zang. 1191? Jordan v
US, 128; US v Hampton? and hearsay declarations of co-conspirators are admissible
against other members of the conspiracy...” US v Nixon. 701; US v Feliziani. 1046. "... a
conspirator is liable for acts undertaken by a co-conspirator in furtherance of their
conspiracy.” US v Chambers. 913-4? US v Craig? US v Tonev. 1355; Dickerson v US Steel
Corp, 67.... If a party has the potential to stop illegal activity but fails to act to do so, and
sits idly by, then that party may be said to have impliedly conspired in such illegalities. ...
it is not required to prove exact details of the agreement.” US vOdiz...; US v Weilner ; US

USA v Verkler 20-30161

v Arians-Izguierdo..,US v Romero.Crowe v Lucas. 993; Hunt v Weatherbee...Gooch v
US; Fritts v US; Pinkerton v US. 640; Carpenter v US. 571, 572.
"... it was not necessary to prove that they knew their conduct was unlawful. US v
Reese; US v Barker; US v Brown; US v Burchinal; US v Winter? US v Cruz? US v
DeVincent? US v Torres Lopez? US v Aneiulo?. “The overt act... need not be itself a crime.”
Bannon & Mulkev v US; Joplin Mercandile Co. v US; US v Rabinowich; Pierce v US?
Braverman v US; “18 USC 241 does not require that any overt act be shown” US v Morado?
US v Skillmen? US v Whitney? US v Ellis? US v Bufalinoi US v Cola? nor an overt
agreement US v Weiner. No direct evidence is needed, Glasser v US; US v Manton; US v
Hinojosa? only circumstantial evidence US v Zang; Jordan v US; US v Hampton? "... a
conspirator is liable for acts undertaken by a co-conspirator in furtherance of their
conspiracy.” US v Chambers? US v Craig? US v Toney. 1355
... need not show that such an agreement was express? a conspiracy may be
implied from the circumstances.” Dickerson v US Steel Corp,,,. If a party
has the potential to stop illegal activity but fails to act to do so, and sits idly
by, then that party may be said to have impliedly conspired in such
illegalities. ... it is not required to prove exact details of the agreement.” [US
v Odizi US v Weilner? US v Arians-Izauierdo? US v Romero]. A showing of
conspirators rarely formulate their plans in ways suspectible of proof by
direct evidence. Crowe v Lucas...? Hunt v Weatherbee...

Whoever aids or abets a crime is punishable as the principle and if 2 pfeople act in
concert, then the act of one is considered the act of the other, Gooch v US; Fritts v US;
Pinkerton v US. 640? Carpenter v US;

In Mr. Verkler’s case, court records were falsified by putting false entries on the
docket and removing true entries from the docket and stealing filed documents from the
court records and dates of filings were falsified and the order changed all to deny Mr.

USA v Verkler 20-30161

Verkler justice and due process and commit crimes against him. The court ruled these acts
are criminal and the clerk’s conviction was upheld, US v Conn. 420-1, 423, 425; US v
Bagnariol. 893, #18? US v Twigg. 381. Also. US v DiSalvo. proc posture, 1211, 1244; US
v Polizzi, 1548; US v Nakaladski. 298; US v Natale. 1168-9; US v Sears. 587; Salinas v
US. 63-5; US v Nguven. 1341.

USA v Verkler 20-30161

CONCLUSION

There are many categories of reasons to rule in George Verkler’s favor. These
categories each have multiple reasons to rule in Mr. Verkler’s favor. Any one of these
reasons alone would be enough to rule in George Verkler’s favor.
It is important to rule in George Verkler’s favor especially the last issue that: the
government and no one in it has the right, authority or power to assist or commit a
crime, a tort, to conspire or lie against any American person. The fate of America is
riding on your decision.
It does not matter whether a person looks at opinions with judges with the
original founding father, or opinions with current judges or anywhere in between or look
at Supreme Court or any Circuit Court or other courts all published opinions favor
George Verkler.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

USA v Verkler 20-30161

/

